<html>
<title> - JUSTICE FOR NATIVE YOUTH: THE GAO REPORT ON NATIVE AMERICAN YOUTH INVOLVEMENT IN JUSTICE SYSTEMS AND INFORMATION ON GRANTS TO HELP ADDRESS JUVENILE DELINQUENCY</title>
<body><pre>[Senate Hearing 115-610]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-610

   JUSTICE FOR NATIVE YOUTH: THE GAO REPORT ON NATIVE AMERICAN YOUTH 
   INVOLVEMENT IN JUSTICE SYSTEMS AND INFORMATION ON GRANTS TO HELP 
                           ADDRESS JUVENILE 
                              DELINQUENCY

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 26, 2018

                               __________

         Printed for the use of the Committee on Indian Affairs
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-337 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e0908fa08395939488858c90ce838f8dce">[email&#160;protected]</a>        




                      COMMITTEE ON INDIAN AFFAIRS

                  JOHN HOEVEN, North Dakota, Chairman
                  TOM UDALL, New Mexico, Vice Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska               JON TESTER, Montana,
JAMES LANKFORD, Oklahoma             BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana                HEIDI HEITKAMP, North Dakota
MIKE CRAPO, Idaho                    CATHERINE CORTEZ MASTO, Nevada
JERRY MORAN, Kansas                  TINA SMITH, Minnesota
JON KYL, Arizona
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Jennifer Romero, Minority Staff Director and Chief Counsel
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 26, 2018...............................     1
Statement of Senator Barrasso....................................     5
Statement of Senator Cortez Masto................................     7
Statement of Senator Heitkamp....................................     6
Statement of Senator Hoeven......................................     1
Statement of Senator Smith.......................................    47
Statement of Senator Udall.......................................     3

                               Witnesses

Abinanti, Hon. Abby, Chief Judge, Yurok Tribal Court.............    26
    Prepared statement...........................................    28
Goodwin, Gretta L., Ph.D, Director, Justice and Law Enforcement 
  Issues, Homeland Security and Justice Team, U.S. Government 
  Accountability Office..........................................     7
    Prepared statement...........................................     9
Harp, Caren, Administrator, Office of Juvenile Justice and 
  Delinquency Prevention, U.S. Department of Justice.............    17
    Prepared statement...........................................    18
Rolnick, Addie, Professor of Law, William S. Boyd School of Law, 
  University of Nevada...........................................    31
    Prepared statement...........................................    34
Tahsuda, John, Principal Deputy Assistant Secretary For Indian 
  Affairs, U.S. Department of the Interior.......................    22
    Prepared statement...........................................    24

                                Appendix

Response to written questions submitted by Hon. Steve Daines to:
    Hon. Abby Abinanti...........................................    57
    Gretta L. Goodwin............................................    57
Response to written questions submitted by Hon. Tom Udall to Hon. 
  Abby Abinanti..................................................    60

 
                   JUSTICE FOR NATIVE YOUTH: THE GAO 
                    REPORT ON NATIVE AMERICAN YOUTH 
                  INVOLVEMENT IN JUSTICE SYSTEMS AND 
                     INFORMATION ON GRANTS TO HELP 
                      ADDRESS JUVENILE DELINQUENCY

                              ----------                              


                     WEDNESDAY, SEPTEMBER 26, 2018


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:59 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Hoeven, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. Good afternoon.
    I call this oversight hearing to order.
    Before we begin, I want to take a moment and recognize our 
former Chairman and member of this Committee, Senator John 
McCain.
    As you know, Senator McCain passed away last month after a 
long battle with cancer. He was truly a colleague and a friend. 
He was one of the Committee's longest-serving members, serving 
twice as Chairman of this Committee.
    Throughout his service in Congress, Senator McCain was a 
real champion for Indian Country. He was a budget hawk and a 
fiscal conservative but he also strongly believed the Federal 
Government has a solemn duty to meet its trust obligations to 
Native Americans.
    He had a hand in some of the most significant Federal laws 
and policies that have benefitted Indian people, including 
fighting to protect the children, honoring Indian veterans, 
promoting transparency and integrity, advancing Native 
languages, regulating Indian gaming, reforming Indian housing, 
forest management and strengthening tribal sovereignty, self 
governance and self determination.
    One of his last measures, now a part of his enduring 
legacy, was the Ashlynne Mike AMBER Alert in Indian Country 
Act. To the very end, Senator McCain did not forget the most 
vulnerable. His work will endure that others will be empowered 
to fulfill their responsibilities to children across Indian 
Country.
    Senator McCain served his Country with honor, integrity, 
dignity, selflessness and tenacity. It was an honor and a 
privilege to serve with him on this Committee and in the 
Senate.
    Senator McCain, you are missed. We thank you for your 
service.
    I would ask for a moment of silence in honor of Senator 
McCain.
    [Moment of silence.]
    The Chairman. Thank you.
    Today, we are examining the Government Accountability 
Office report on Native American youth. Native children often 
face significant risk factors which make them more susceptible 
to juvenile delinquency, substance abuse and high poverty 
rates.
    We hear about these risk factors all too frequently. We 
must continue to make positive reforms to help these young 
people chart a different course. In light of these challenges, 
Senator Barrasso and I requested this study to determine how we 
can help Indian Country's next generation, not just survive, 
but to thrive.
    Issued on September 5, 2018, the report is a landmark study 
which examines the extent to which Native American youth are 
involved in Federal, State, local and tribal justice systems.
    It also provides a review of the Federal resources 
available to help Indian tribes and tribal organizations 
address juvenile delinquency.
    The report indicated that the arrest, adjudication and 
confinement numbers for Native youth declined from 2010 to 
2016. Though it did not formally conclude why these numbers 
have been declining, individuals interviewed by the GAO 
indicated that restorative justice may have been a significant 
factor contributing to the decline.
    If so, we must discuss how we can continue to use 
restorative justice practices to keep our youth out of the 
criminal justice system.
    According to GAO, in North Dakota in 2010, there were 1,092 
Native youth in the State justice system. That was 18.4 percent 
of the total youth in the State system at that time.
    Even though the number decreased in 2016 to 685, 17.5 
percent youth in the system at that time, these numbers are 
still too high and certainly unacceptable.
    While historically the number of Native youth has been 
higher in State and local systems when compared to the Federal 
system, our Federal system is often more problematic for Native 
youth.
    The number of Native youth in the Federal system far 
exceeds other youth. Additionally, Native youth generally 
experience more serious charges and punishments in the Federal 
system.
    As I mentioned, the GAO also reviewed the Federal resources 
available to help Indian tribes address juvenile delinquency. 
It highlighted that nearly $1.2 billion in Federal dollars was 
available in grants from the Departments of Justice and Health 
and Human Services for Indian tribes and tribal organizations 
to combat juvenile delinquency.
    However, only a little over $207 million was awarded to 
Indian tribes and tribal organizations. The GAO is continuing 
to examine how these resources can be better mobilized to 
combat juvenile delinquency.
    We will continue to work with the GAO as they study this 
staggering problem in Indian Country. In the meantime, I would 
like to continue working with those represented here to address 
the issues raised by this report.
    It is essential that we take action on behalf of our Native 
youth and the entirety of Indian Country to reform the current 
justice system. For this reason, Senators Barrasso, McCain, 
Daines, Murkowski and I sponsored the Tribal Law and Order 
Reauthorization and Amendments Act of 2017.
    This bill would help address several of the issues 
identified in the report, most notably data collection on 
tribal affiliation, determination of the best approach to 
public safety and behavioral health-related juvenile justice 
programs, and the development of culturally relevant evidence-
based justice programs.
    With that, I want to welcome our witnesses. I look forward 
to our witnesses. I welcome your testimony and recommendations 
on these issues.
    Before we turn to your testimony, I would like to ask for 
opening statements beginning with Vice Chairman Udall.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you very much, Chairman Hoeven. Thank 
you so much for your moving statement about our friend and 
colleague, Senator McCain.
    I would also like to say a few words about my good friend, 
colleague and former Chairman of this Committee, Senator John 
McCain.
    John's outsized presence in the United States Senate and 
this Committee will surely be missed, but his enduring legacy 
will guide us for years to come. John was a leading voice on 
many issues throughout his decades of public service.
    He was internationally known for his stances on human 
rights and government oppression around the globe. He was also 
a leading voice for Indian Country. He worked diligently on 
this Committee on issues critical to Native Americans like 
improved housing, health care, education and economic 
development.
    We did not see eye-to-eye on every issue, but John and I 
agreed on the fundamentals of tribal sovereignty. The decisions 
made by tribes for tribes produce better outcomes. John held 
true to those core values throughout his tenure on the Senate 
Committee on Indian Affairs. His voice will be sorely missed.
    Mr. Chairman, this oversight hearing involving Native youth 
and juvenile justice is an important one. I really appreciate 
your working with me in scheduling this. I continue to be 
inspired by the resilience and determination of youth tribal 
members to tackle the tough issues facing Indian Country.
    At our oversight hearing on Native languages, we heard from 
Lauren Hummingbird, a recent high school graduate and Cherokee 
immersion program participant. Her powerful testimony 
underscored the positive cultural impact Native youth can have 
on their communities.
    For me, it highlighted the importance of providing 
opportunities and resources like language and cultural programs 
to help lift the next generation toward success. That lesson is 
particularly salient today as we turn to juvenile justice. 
Research tells us that risk factors, such as domestic violence, 
housing insecurity, unwelcoming schools, and substance abuse 
contribute to Native juvenile delinquency at disproportionate 
rates.
    Many Native youth are forced to face these risk factors 
every day. To address juvenile justice in Indian Country, we 
need to find ways to decrease those known risk factors while 
supporting the development of more productive factors.
    At our last oversight hearing on juvenile justice in 2015, 
much of the conversation focused on risk factors and protective 
factors. In fact, I recall speaking with one of today's 
witnesses, Professor Rolnick, about how many highly effective 
juvenile justice programs rely on activities that are not a 
part of anti-delinquency programs as we normally think of them, 
like the Santa Clara Pueblo's Capo Kid's Initiative which 
incorporates tradition and healthy extra curricula activities 
and their methods to reduce juvenile and young adult crime.
    I am glad today's hearing will give us a chance to 
reexamine what we learned in 2015 in light of GAO's findings in 
this new report. It is unfortunate, but perhaps not unexpected, 
that data challenges stemming from department and 
jurisdictional differences are clouding our ability to track 
juvenile justice trends.
    It is important to know where these data limitations lie 
and get a better picture of how Federal resources are reaching 
Native youth. The grants portion of the report is especially 
important to consider as we talk about risk factors and 
protective factors.
    The Committee needs to have a better understanding of the 
universe of programs that can keep Native youth resilient and 
strong and to keep those most at risk from slipping through the 
cracks, providing quality housing through NAHASDA, immersing 
Native youth in their language through Esther Martinez 
Programs, securing additional funding through Interior 
Department appropriations for BIE and substance abuse, and 
restoring tribal jurisdiction over domestic and family violence 
with the Native Youth and Tribal Officer Protection Act.
    All these things would go a long way toward making sure the 
decrease in juvenile delinquency between 2010 and 2016 observed 
by GAO continues for the next ten years and more. We must work 
together to provide tribes with more resources and ensuring 
Native youth get the support they need.
    I look forward to working with my colleagues on this 
Committee to continue looking for more ways to champion Native 
youth. I look forward to continuing our work together, Mr. 
Chairman, over the last few months of this Congress to move 
important legislation that will help Native youth and tribal 
communities across the finish line.
    Thank you to all of our witnesses for joining us today. 
Thank you again, Mr. Chairman for calling this hearing.
    I yield back.
    The Chairman. Thank you, Vice Chairman Udall.
    Senator Barrasso.

               STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman. I 
appreciate your holding this hearing today. I thank both you 
and the Vice Chairman for the comments you made about our 
friend and colleague, Senator McCain.
    This was clearly an issue that was incredibly important not 
just to us, but to Senator McCain. He cared deeply about the 
issue we will be discussing today.
    I am honored to serve on this Committee. As a member and 
past chairman, this Committee is going to be different without 
his passionate advocacy for Indian Country. We certainly are 
all better off for having debated complex issues with him.
    Senator McCain knew, and I agreed, that no issue is more 
important across tribal communities than those affecting 
children. As a matter of fact, he and I had a chance in 2016 to 
go to Window Rock and the Navajo Nation to visit with a number 
of people, tribal leaders and a school, St. Michael's School.
    When he passed, many of us put on our Instagram account 
pictures of us doing things with Senator McCain, many in war 
zones. The picture I chose was one of the Navajo Nation at the 
school with children. You can see the love and the look in 
Senator McCain's eyes and the deep feelings he had to making 
sure the children, and most certainly the Navajo Nation, had 
the opportunities so necessary.
    Mr. Chairman, let me say, prior to completion of the GAO 
report we are here to discuss today, we knew there a number of 
issues existed related to Native youth interactions with the 
justice system. As chairman, I held a similar hearing in 2015 
where we considered findings from the 2013 report from the 
Indian Law and Order Commission and the 2014 report from the 
Attorney General's Advisory Committee on American Indian and 
Alaska Native Children Exposed to Violence Task Force.
    Ms. Rolnick testified during that hearing and made a series 
of comprehensive recommendations, some of which are still 
applicable today. Ms. Rolnick, I appreciate you joining us 
again today to continue this important discussion.
    While the GAO report and others like it fill a sizable gap 
in our knowledge about the number of Native youth in the 
justice system and the nature of interactions, the GAO found 
that existing data was sparse.
    In their written testimonies, Dr. Goodwin, Ms. Harp and Ms. 
Rolnick all identified the need to have improved data 
collection. I believe more complete information will inform 
better policy and better policy will help us be better partners 
with tribes as we work to ensure Native youth have bright 
futures.
    Mr. Chairman, I want to thank you again for having this 
important discussion. I look forward to continuing to work with 
you to find lasting solutions.
    The Chairman. Thank you, Senator Barrasso. Thanks for your 
leadership on this important issue.
    Are there other opening statements? Senator Heitkamp.

               STATEMENT OF HON. HEIDI HEITKAMP, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Heitkamp. Thank you, Mr. Chairman. Thank you for 
calling this hearing. I think it is critically important.
    I too want to share remembrances and thoughts about our 
colleague and friend, Senator John McCain.
    An image I think got lost in the kind of flurry of amazing 
memorials and opportunities to recount a life well lived, a 
life lived with honor and duty, the image I will remember 
forever was a makeshift memorial at the end of their driveway, 
a long road at their home in Sedona. It was a lone Native 
American man, a soldier, saluting Senator McCain warrior-to-
warrior. When I saw that image, I knew it would be one of those 
of which Senator McCain would be most proud because it 
represented the brotherhood of warriors but also represented 
his unique and sincere desire to improve conditions for Native 
Americans, especially Native American children.
    One of the last bills Senator McCain was able to get passed 
was our bill which would allow for Amber Alert in Indian 
Country, a bill on which I worked very closely with Cindy, his 
wonderful wife, who will now pick up the legacy of doing this 
work.
    One of the challenges and opportunities I want to talk 
about in brief comments here is the Commission on the Status of 
Native American Children which we were able to finish coming 
out of this Committee and now are working on getting funded.
    It is not enough to do studies, to wring our hands and look 
at statistics. We need real solutions and real actions. I hope 
as we look at what will improve the lives of our indigenous and 
Native people in this Country; we will look at this through the 
lens of their children.
    There are serious issues with the juvenile justice system 
as it relates to Native American children. I hear more and more 
from the children who are incarcerated, I will use that word, 
and detained in some ways in juvenile justice facilities that 
are Federal facilities with no education, no benefits, and no 
real opportunity for change.
    We want to see what that looks like. The most important 
thing we can do is prevent a child from entering that system. I 
want everyone to understand that is the purpose of the 
Commission on Native American Children, to find some 
comprehensive approach to generational trauma and changing 
outcomes very early on to avoid children entering the Federal 
juvenile justice system.
    I think John would be proud as we talk about this effort. 
He knew the best thing we could do is go upstream. Let us not 
try to just deal with the symptoms, let us try and deal with 
the root causes.
    The Chairman. Other opening statements? If not, I will 
proceed to our witnesses.
    Today, we will hear from Dr. Gretta L. Goodwin, Ph.D, 
Director, Justice & Law Enforcement Issues, Homeland Security & 
Justice Team, U.S. Government Accountability Office, 
Washington, D.C.; Ms. Caren Harp, Administrator, Office of 
Juvenile Justice and Delinquency Prevention, U.S. Department of 
Justice, Washington, D.C.
    I understand this is your first appearance before Congress 
since being appointed by the President and sworn in on January 
19, 2018. Welcome.
    We will also hear from Mr. John Tahsuda, Principal Deputy 
Assistant Secretary for Indian Affairs, U.S. Department of the 
Interior, Washington, D.C. Deputy Secretary Tahsuda was Senator 
McCain's former Staff Director on this Committee for how many 
years, John?
    Mr. Tahsuda. Two years.
    The Chairman. Amazing how that works.
    We will also hear from The Honorable Abby Abinanti, Chief 
Judge, Yurok Tribal Court, Klamath, California. Welcome.
    I am going to turn to Senator Cortez Masto to introduce Ms. 
Rolnick.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you, Chairman Hoeven and 
Ranking Member Udall.
    I am honored to be able to introduce Professor Addie 
Rolnick from the UNLV William S. Boyd School of Law. As you 
have heard, Professor Rolnick is no stranger to this Committee 
having testified before in 2015.
    She specializes in criminal law and procedure, Indian law 
and critical race theory. Her scholarship investigates the 
relationships between sovereign power and minority rights with 
a focus on indigenous peoples and equal protection doctrine, 
tribal court jurisdiction, the role of race and gender in the 
criminal, juvenile and tribal justice systems.
    Professor Rolnick has written numerous articles on these 
issues, including Native Youth and Juvenile Injustice in South 
Dakota, and Locked Up: Fear, Racism, Prison Economics, and the 
Incarceration of Native Youth.
    She has previously worked here in D.C. as an advocate on 
tribal criminal and juvenile justice issues. She has also 
assisted tribes with institution building in the areas of 
constitutional reform, criminal law and juvenile justice and 
child welfare.
    I am so happy to be able to introduce Professor Rolnick to 
the Committee. I look forward to hearing her expert testimony. 
Thank you for being here.
    The Chairman. Thank you, Senator Cortez Masto.
    With that, we will turn to you, Dr. Goodwin, for your 
testimony.

        STATEMENT OF GRETTA L. GOODWIN, Ph.D, DIRECTOR, 
         JUSTICE AND LAW ENFORCEMENT ISSUES, HOMELAND 
          SECURITY AND JUSTICE TEAM, U.S. GOVERNMENT 
                     ACCOUNTABILITY OFFICE

    Dr. Goodwin. Chairman Hoeven, Vice Chairman Udall, and 
members of the Committee, I am pleased to be here today to 
discuss our recently completed work on Native American youth in 
the Federal, State, local and tribal justice systems, as well 
as the Federal grant programs that help address issues of 
delinquency among their populations.
    Several risk factors make Native American youth susceptible 
to becoming involved with the justice system, including 
exposure to violence, substance abuse and poverty.
    My testimony today will highlight two areas: first, data on 
the number and characteristics of Native American youth in the 
Federal, State and local, and tribal justice systems; and 
second, Federal grant programs that can help prevent or address 
delinquency as well as tribal governments and Native American 
organizations access to those grants.
    Our analysis showed that from 2010 through 2016, the number 
of Native American youth in Federal, State and local justice 
systems declined across all phases of the process, arrest, 
adjudication and confinement. For example, arrest of Native 
American youth at the Federal level dropped from 60 in 2010 to 
20 in 2016. At the State and local level, arrests declined from 
over 18,000 in 2010 to about 11,000 in 2016.
    The vast majority of Native American youth who came into 
contact with the justice system were involved at the State and 
local levels, not the Federal level. For example, from 2010 
through 2016, agencies reported over 105,000 arrests at the 
State and local levels compared to 246 arrests at the Federal 
level.
    At the State and local levels, the offenses for which 
Native Americans and non-Native American youth were arrested, 
adjudicated and confined were generally similar. However, at 
the Federal level, differences were found among the most 
frequent types of offenses committed.
    Native American youth most frequently committed offenses 
against a person such as assault or sex offenses while non-
Native American youth most frequently committed offenses 
related to drugs and alcohol or public order.
    For most States, the share of Native American youth 
involved in the State and local systems was similar to their 
share of the youth population in that State. In contrast, their 
representation in the Federal system was greater than their 
representation nationwide. Native American youth were 1.6 
percent of the nationwide youth population but were 18 percent 
of the youth arrested at the Federal level.
    We obtained perspectives from DOJ officials and Native 
American organizations about factors that might contribute to 
the data we observed. For example, both groups attributed the 
greater percent of Native American youth in the Federal system 
to Federal Government jurisdiction over crimes in Indian 
Country that States would otherwise prosecute if committed 
outside of Indian Country.
    Regarding grant programs, we identified 122 offered by DOJ 
and HHS from fiscal years 2015 to 2017 that could help prevent 
or address delinquency among Native American youth. 
Approximately $1.2 billion in first year awards were made over 
that period while $207 million were awarded to tribal 
governments or Native American organizations.
    While tribal governments and Native American organizations 
were eligible for almost all 122 grant programs we identified, 
they applied mostly for the programs that focused on their 
communities. DOJ and HHS officials provided perspectives on why 
tribal governments and Native American organizations might not 
apply for grant programs that do not specify them as a primary 
beneficiary. These include a lack of awareness that they are 
eligible and concerns that their applications won't be 
competitive for grants that do not focus on their communities.
    Tribal governments and Native American organizations 
identified various practices they found helpful or challenging 
when applying for grants. They told us being able to ask 
questions of agency officials during the application process 
was helpful. They cited short application deadlines and 
difficulties collecting the required data as some of the 
challenges when applying for Federal grants.
    Chairman Hoeven, Vice Chairman Udall, and members of the 
Committee, this concludes my remarks. I am happy to answer any 
questions you have.
    [The prepared statement of Dr. Goodwin follows:]

 Prepared Statement of Gretta L. Goodwin, Ph.D, Director, Justice and 
   Law Enforcement Issues, Homeland Security and Justice Team, U.S. 
                    Government Accountability Office
    Chairman Hoeven, Vice Chairman Udall, and Members of the Committee:
    I am pleased to be here today to discuss our recently completed 
report on American Indian and Alaska Native (Native American) youth 
involvement in federal, state and local, and tribal justice systems, 
and federal grant programs available to help address issues of 
delinquency among Native American youth. \1\
---------------------------------------------------------------------------
    \1\ GAO, Native American Youth: Involvement in Justice Systems and 
Information on Grants to Help Address Juvenile Delinquency, GAO-18-591 
(Washington, D.C.: Sept. 5, 2018).
---------------------------------------------------------------------------
    In particular, I will highlight our findings pertaining to (1) what 
available data show on the number and characteristics of Native 
American youth in federal, state and local, and tribal justice systems; 
and (2) selected federal discretionary grants and cooperative 
agreements (grant programs) that could help prevent or address 
delinquency among Native American youth, and tribal governments and 
Native American organizations' access to them. \2\
---------------------------------------------------------------------------
    \2\ Discretionary grants are competitive and the granting agency 
has discretion to choose one applicant over another. Cooperative 
agreements are similar to discretionary grants in that federal agencies 
generally award them based on merit and eligibility; however, federal 
agencies generally use cooperative agreements when they anticipate that 
there will be substantial federal, programmatic involvement with the 
recipient during the performance of the financially-assisted 
activities, such as agency collaboration or participation in program 
activities.
---------------------------------------------------------------------------
    According to recent reports and agency research, \3\ several risk 
factors make some Native American youth susceptible to becoming 
involved with justice systems at the federal, state and local, and 
tribal levels. \4\ These risk factors include exposure to violence; 
substance abuse; poverty; limited job market skills; and tribal 
communities' limited funding for mental health, education, housing, and 
other services.
---------------------------------------------------------------------------
    \3\ Attorney General's Advisory Committee on American Indian/Alaska 
Native Children Exposed to Violence, Ending Violence so Children Can 
Thrive,(November 2014), available at https://www.justice.gov/sites/
default/files/defendingchildhood/pages/attachments/2014/11/18/
finalaianreport.pdf; Indian Law and Order Commission, A Roadmap for 
Making Native America Safer: Report to the President and Congress of 
the United States (November 2013), available at https://
www.aisc.ucla.edu/iloc/report/; and Department of Justice Office of 
Juvenile Justice and Delinquency Prevention, Literature Review: A 
Product of the Model Programs Guide-Tribal Youth in the Juvenile 
Justice System (Washington, D.C.: Development Services Group, Inc., 
2016), available at https://www.ojjdp.gov/mpg/litreviews/Tribal-youth-
in-the-Juvenile-Justice-System.pdf. The Indian Law and Order Commission 
was established by the Tribal Law and Order Act of 2010, Pub. L. No. 
111-211, tit. II,  235, 124 Stat. 2258, 2282 (2010).
    \4\ Our discussion of Native American youth in justice systems 
(i.e., federal, state and local, and tribal) generally included persons 
who were (a) under 18 years of age at the time of arrest, adjudication, 
or confinement; and (b) identified as Native American based on 
descriptions and definitions of the agencies providing the data we 
reviewed.
---------------------------------------------------------------------------
    Native American youth who commit offenses can enter one or more 
justice systems at the federal, state and local, and tribal levels. 
Although these justice systems have unique characteristics, youth 
generally proceed through certain phases, including arrest, prosecution 
and adjudication, and in some instances, placement and confinement in a 
detention facility. \5\
---------------------------------------------------------------------------
    \5\ Our use of the term ``adjudication'' refers to youth in both a 
juvenile justice system and prosecuted in adult criminal court. Our use 
of the term ``confinement'' refers to youth committed to facilities 
such as federally operated prisons; juvenile facilities overseen by the 
federal government; and state, local, and tribal jails.
---------------------------------------------------------------------------
    When a Native American youth enters the federal criminal justice 
system, the Department of Justice (DOJ) and Department of the Interior 
(DOI), among others, have responsibility for investigating and 
prosecuting his or her act of delinquency or crime. Additionally, 
federal agencies including DOJ and the Department of Health and Human 
Services (HHS) provide funding through grant programs that grantees 
could use to help prevent or address juvenile delinquency. \6\
---------------------------------------------------------------------------
    \6\ In our September 2018 report and this testimony statement, we 
use the term ``juvenile'' when referencing justice systems and 
``youth'' when referring more generally to individuals under the age of 
18 at the time of arrest or confinement. In addition, we use the term 
``Native American'' to indicate both Alaska Native and American Indian 
individuals, including the youth in the data we reviewed. However, we 
use the term ``Indian'' in reference to definitions established by 
statute or law.
---------------------------------------------------------------------------
    Outside Indian country, a state generally has jurisdiction to 
proceed against a youth who has committed a crime or act of juvenile 
delinquency. \7\ Federal law limits federal jurisdiction over youth if 
a state has jurisdiction over the youth and has a system of programs 
and services adequate for their needs. \8\ State and local justice 
systems have specific courts--often at the county or city level--with 
jurisdiction over youth alleged to have committed an act of juvenile 
delinquency or a crime. \9\ Inside Indian country, youth (and adults) 
may fall under federal, state, or tribal jurisdiction depending on 
several factors. \10\ These factors include the nature of the crime, 
the status of the alleged offender and victim--that is, whether they 
are Indian or not--and whether jurisdiction has been conferred on a 
particular entity by statute. The Major Crimes Act, for example, grants 
the federal government criminal jurisdiction over Indians in Indian 
country charged with serious, felony-level offenses enumerated in the 
statute, such as murder, manslaughter, kidnapping, burglary, and 
robbery. \11\ State jurisdiction in Indian country is generally limited 
to two instances: when both the alleged offender and victim are non-
Indian, or when a federal statute confers, or authorizes, a state to 
assume criminal jurisdiction over Indians in Indian country. \12\ 
Otherwise, only the federal and tribal governments have jurisdiction in 
Indian country.
---------------------------------------------------------------------------
    \7\ Federal law defines the term ``Indian country'' as all land 
within the limits of any Indian reservation under the jurisdiction of 
the U.S. government, all dependent Indian communities within U.S. 
borders, and all existing Indian allotments, including any rights-of-
way running through an allotment. See 18 U.S.C.  1151. With certain 
exceptions, there is generally not Indian country in Alaska.
    \8\ See 18 U.S.C.  5032.
    \9\ Typically, justice systems refer to unlawful acts committed by 
youth as acts of juvenile delinquency, and unlawful acts committed by 
adults as crimes.
    \10\ See 18 U.S.C.   1152 (codifying the General Crimes Act, as 
amended); 1153 (codifying the Major Crimes Act, as amended); and 1162 
(codifying state criminal jurisdiction provisions of Public Law 280, as 
amended). The federal government also has jurisdiction to prosecute 
crimes of general applicability, such as violations of the Controlled 
Substances Act of 1970, 21 U.S.C.  801 et seq., and crimes that relate 
specifically to Indian tribal organizations and resources without 
regard for the Indian status of the alleged offender or victim. See 
generally 18 U.S.C.   1154-70. Additionally, the Federal Juvenile 
Delinquency Code applies to all juveniles alleged to have committed an 
act of juvenile delinquency, other than a violation of law committed 
within the special maritime and territorial jurisdiction of the United 
States for which the maximum authorized term of imprisonment does not 
exceed 6 months, and therefore generally applies to juveniles outside 
and inside of Indian country. See 18 U.S.C.  5032.
    \11\ See 18 U.S.C.  1153.
    \12\ Public Law 280 gave certain states--Alaska, California, 
Minnesota, Nebraska, Oregon, and Wisconsin--exclusive criminal 
jurisdiction over offenses committed by or against Indians in Indian 
country, except as specified in statute, thereby waiving federal 
jurisdiction in those states. 18 U.S.C.  1162. A 2010 amendment to 
this statute enabled tribes in Public Law 280 states to request 
concurrent federal jurisdiction. See Pub. L. No. 111-211, tit. II, 
subtit. B,  221(b), 124 Stat. 2272 (codified as amended at 18 U.S.C.  
1162(d)). Because of this amendment, federal courts in Public Law 280 
states can exercise jurisdiction over certain crimes if the tribe 
requests concurrent federal jurisdiction and the Attorney General 
consents to it. Specifically, after the tribal request and consent of 
the Attorney General, federal and state courts in Public Law 280 states 
have jurisdiction concurrent with the state for (1) major crimes 
committed by Indians against Indians and non-Indians under the Major 
Crimes Act; (2) crimes by non-Indians against Indians under the Indian 
Country Crimes Act/Assimilative Crimes Act; and (3) crimes committed by 
Indians against non-Indians under the Indian Country Crimes Act/
Assimilative Crimes Act.
---------------------------------------------------------------------------
    For our September 2018 report, we analyzed federal, state and 
local, and tribal arrest, adjudication, and confinement data from 2010 
through 2016 (the most recent available) from DOJ and DOI. We also 
analyzed DOJ and HHS grant program award documentation from fiscal 
years 2015 through 2017, and application information for a sample of 
the grant programs chosen based on the amount of funding awarded and 
other factors. Additionally, we also interviewed officials from DOJ, 
HHS, and 10 tribal governments or Native American organizations chosen 
to include successful and unsuccessful applicants to the grant 
programs, among other things. \13\ Additional information on our scope 
and methodology can be found in our September 5, 2018 report. For 
specific information about the different databases from which we 
gathered our data, see appendix I. Our work was performed in accordance 
with generally accepted government auditing standards.
---------------------------------------------------------------------------
    \13\ In our September 2018 report, we defined ``tribal 
governments'' as the governing bodies of federally recognized tribes. 
We defined ``Native American organizations'' as organizations 
affiliated with federally recognized tribes, such as tribal colleges 
and universities, as well as non-tribal organizations that focus on 
serving American Indian and Alaska Native populations, such as urban 
Indian organizations. In addition, we did not include Native Hawaiian 
and Pacific Islander governmental entities and organizations in our 
definition of ``tribal governments and Native American organizations'' 
for the purposes of our September 2018 report.
---------------------------------------------------------------------------
Available Data Indicate Native American Youth Involvement in Justice 
        Systems Declined from 2010 through 2016 and Differed in Some 
        Ways 
        from That of Non-Native American Youth
    In our September 2018 report, we found that from 2010 through 2016 
the number of Native American youth in federal and state and local 
justice systems declined across all phases of the justice process--
arrest, adjudication, and confinement--according to our analysis of 
available data. At the federal level, arrests by federal agencies 
dropped from 60 Native American youth in 2010 to 20 in 2016, and at the 
state and local level, arrests of Native American youth declined by 
almost 40 percent from 18,295 arrested in 2010 to 11,002 in 2016.
    Our analysis also found that the vast majority of these Native 
American youth came into contact with state and local justice systems, 
not the federal system. For example, from 2010 through 2016, there were 
105,487 total arrests of Native American youth reported by state and 
local law enforcement agencies (LEAs). In contrast, there were 246 
Native American youth held in federal custody by the U.S. Marshals 
Service due to arrest by federal LEAs during the same period.
    We also found a number of similarities between Native American and 
non-Native American youth in state and local justice systems. For 
example, the offenses that Native American youth and non-Native 
American youth were arrested, adjudicated, and confined for were 
generally similar. \14\ In contrast, our analysis also showed a number 
of differences between Native American and non-Native American youth in 
the federal justice system. For example, our analysis showed variation 
in the types of offenses committed by each group. From fiscal years 
2010 through 2016, the majority of Native American youth in the federal 
justice system were arrested, adjudicated, or confined for offenses 
against a person, with the top two specific offenses being assault and 
sex offenses. \15\ In contrast, the majority of involvement of non-
Native American youth in the federal system during the same period was 
due to public order or drug and alcohol offenses at all three stages, 
with the top two specific offenses being drug and immigration related. 
\16\ Our September 2018 report contains additional information on the 
differences between Native American and non-Native American youth 
involved with the federal justice system.
---------------------------------------------------------------------------
    \14\ Additional discussion on similarities between Native American 
and non-Native American youth involved with the state and local justice 
systems can be found in our September 2018 report.
    \15\ The data sources we reviewed for our September 2018 report 
contained hundreds of specific offenses, such as simple assault, 
illegal entry, and rape. To analyze the data, we categorized specific 
offenses for all data sources into 1 of 22 offense categories, such as 
assault, immigration, and sex offense. To determine the 22 categories, 
we considered categories used in our prior work and consulted FBI's 
Uniform Crime Reporting offense codes. The placement of specific 
offenses into offense categories was carried out by a GAO analyst, 
reviewed by additional GAO analysts, and confirmed by a GAO attorney. 
We then grouped the offense categories into five broad categories--drug 
and alcohol, person, property, public order, and other. To determine 
the five broad categories, we considered categories presented in 
National Center for Juvenile Justice's annual Juvenile Court Statistics 
reports. The placement of offense categories into a broad category was 
carried out by a GAO analyst and confirmed by a GAO attorney.
    \16\ For the purposes of our analysis in our September 2018 report, 
public order offenses could include disorderly conduct; fraud, forgery, 
and counterfeiting; immigration; obstruction of justice; probation 
parole; status offenses; traffic violations; and weapons violations.
---------------------------------------------------------------------------
    Further, we found that the percent of Native American youth 
involved in most state and local systems was generally similar to their 
representation in the youth populations in those states. For example, 
our analysis found that the majority (about 75 percent) of Native 
American youth arrested by state and local LEAs from calendar years 
2010 through 2016 were located in 10 states: Alaska, Arizona, 
Minnesota, Montana, New Mexico, North Dakota, Oklahoma, South Dakota, 
Washington, and Wisconsin. These 10 states had among the highest 
percent of Native Americans in their states' overall youth populations, 
according to 2016 U.S. Census estimates we reviewed. \17\ In 2016, the 
largest number of arrests by state and local LEAs occurred in Arizona 
and South Dakota.
---------------------------------------------------------------------------
    \17\ According to 2016 census estimates, the following states had 
the highest percent of Native Americans among the overall youth 
population: Alaska: 19 percent; South Dakota: 14 percent; New Mexico: 
13 percent; Oklahoma: 12 percent; Montana: 11 percent; North Dakota: 9 
percent; Arizona: 7 percent; Wyoming: 4 percent; Washington: 2.7 
percent; Oregon: 2.4 percent; Nebraska: 2.3 percent; Idaho: 2.1 
percent; and Minnesota: 2 percent. For the remaining states, the 
percent of youth who were Native American was less than 2 percent.
---------------------------------------------------------------------------
    In contrast, we found that representation of Native American youth 
arrested, referred for adjudication, and confined at the federal level 
during the period reviewed was greater (13 to 19 percent) than their 
representation in the nationwide youth population (1.6 percent).
    DOJ officials told us that the population of Native Americans in 
the federal justice system has historically been higher than their 
share in the nationwide population, and they attributed this and other 
differences shown by our analysis to federal government jurisdiction 
over certain crimes in Indian country, as well as the absence of 
general federal government jurisdiction over non-Native American youth. 
According to DOJ officials, this jurisdiction requires the federal 
government to prosecute offenses that would commonly be prosecuted by 
states if committed outside of Indian country. According to DOJ 
officials, a small handful of federal criminal statutes apply to all 
juveniles, such as immigration and drug statutes, but the federal 
government has been granted greater jurisdiction over Native American 
youth than non-Native American youth by federal laws that apply to 
crimes committed in Indian Country, such as the Major Crimes Act. For 
example, one DOJ official noted that the Major Crimes Act gives the 
federal government exclusive jurisdiction over crimes such as burglary 
and sex offenses committed in Indian country. This differs from the 
treatment of non-Native American youth, who are not prosecuted in the 
federal system for the same types of offenses, because the federal 
government does not have jurisdiction over those youth for such 
offenses. Non-Native American youth are instead subject to the general 
juvenile delinquency jurisdiction of state and local courts.
    Additionally, DOJ officials stated that tribal justice systems are 
often underfunded and do not have the capacity to handle Native 
American youths' cases. Therefore, they stated that when both federal 
and tribal justice systems have jurisdiction, the federal system might 
be the only system in which the youth's case may be adjudicated. For 
these reasons, the percentage of Native American youth offenders in the 
federal justice system is higher than non-Native American juveniles in 
accordance with population size, according to DOJ officials.
    Representatives from four of the five Native American organizations 
we interviewed, whose mission and scope of work focus on Native 
American juvenile justice issues and that have a national or 
geographically specific perspective, noted that federal jurisdiction is 
a key contributor to the higher percentage of Native American youth 
involved at the federal justice level. Additionally, representatives 
from all five organizations noted, similarly to DOJ officials, that 
federal jurisdiction over crimes in Indian country is typically for 
more serious offenses (specifically under the Major Crimes Act), such 
as offenses against a person. \18\
---------------------------------------------------------------------------
    \18\ See our September 2018 report for additional information on 
perspectives we collected from agency officials and the five Native 
American organizations regarding factors that might contribute to the 
data characteristics we observed.
---------------------------------------------------------------------------
    Comprehensive data from tribal justice systems on the involvement 
of Native American youth were not available. However, we identified and 
reviewed a few data sources that provided insights about the arrest, 
adjudication, and confinement of Native American youth by tribal 
justice systems. See appendix II for a summary of our analysis of data 
from these sources.
DOJ and HHS Offered at Least 122 Grant Programs; Tribal Governments or 
        Native American Organizations Were Eligible for Almost All but 
        in a Sample of Applications We Reviewed, Applied Primarily for 
        Programs Specifying Native Americans
    In our September 2018 report, we identified 122 discretionary 
grants and cooperative agreements (grant programs) offered by DOJ and 
HHS from fiscal years 2015 through 2017 that could help prevent or 
address delinquency among Native American youth. \19\ DOJ and HHS made 
approximately $1.2 billion in first-year awards through the 122 
programs over the period, of which the agencies awarded about $207.7 
million to tribal governments or Native American organizations. \20\ A 
list of the 122 programs, which focus on a range of issues such as 
violence or trauma, justice system reform, alcohol and substance abuse, 
and reentry and recidivism, can be found in our September 2018 report.
---------------------------------------------------------------------------
    \19\ To identify grant programs for our September 2018 report, we 
conducted a keyword search of ``youth or juvenile'' in Grants.gov--an 
online repository that houses information on over 1,000 different grant 
programs across federal grant-making agencies. We reviewed the search 
results of the three departments with the highest number of grant 
program matches--DOI, DOJ, and HHS. Within DOI, we considered grant 
programs from the Bureau of Indian Affairs and Bureau of Indian 
Education; however, we ultimately removed DOI from the scope of our 
review because DOI officials informed us that the bureaus did not have 
any relevant grant programs from fiscal years 2015 through 2017.
    \20\ The $1.2 billion does not include noncompetitive supplemental 
or continuation awards that agency officials sometimes provide grantees 
on an annual basis subsequent to the first year of funding. For 
example, the fiscal year 2017 funding opportunity announcement for 
HHS's Cooperative Agreements for Tribal Behavioral Health program 
estimated it would provide up to $200,000 per year for up to 5 years to 
grantees. If a grantee received $200,000 per year over a 5-year period, 
the $1.2 billion total would include only the first year in which the 
grantee received $200,000.
---------------------------------------------------------------------------
    The 122 DOJ and HHS grant programs we identified included 27 
programs that specified tribes or Native Americans as a primary 
beneficiary and 95 programs that did not specify these populations but 
could include them as beneficiaries. \21\ For example, the Department 
of Justice's Office of Juvenile Justice and Delinquency Prevention 
offered the Defending Childhood American Indian/Alaska Native Policy 
Initiative: Supporting Trauma-Informed Juvenile Justice Systems for 
Tribes program for funding in fiscal year 2016. The goal of this 
program--increasing the capacity of federally recognized tribes' 
juvenile justice and related systems to improve the life outcomes of 
youth who are at risk or who are involved in the justice system and to 
reduce youth exposure to violence--explicitly focused on tribal 
communities. On the other hand, the Sober Truth on Preventing Underage 
Drinking Act grant program, which HHS's Substance Abuse and Mental 
Health Services Administration offered for funding in fiscal year 2016 
to prevent and reduce alcohol use among youth and young adults, is an 
example of a program that did not specify tribes or Native Americans as 
a primary beneficiary but could include them as beneficiaries.
---------------------------------------------------------------------------
    \21\ We determined which of the 122 grant programs we identified 
specified tribes or Native Americans as a primary beneficiary and which 
did not by reviewing whether the title, executive summary, overview, or 
purpose of their funding opportunity announcements specifically 
referenced tribes or Native Americans as the main or one of few 
beneficiaries of the proposed grant program funding.
---------------------------------------------------------------------------
    We found that tribal governments and Native American organizations 
were eligible for almost all of the grant programs we identified. 
Specifically, they were eligible to apply for 70 of 73 DOJ programs and 
48 of 49 HHS programs. However, although tribal governments and Native 
American organizations were eligible to apply for almost all of the 
programs, we found in a non-generalizable sample of applications we 
reviewed that they applied primarily for the programs that specified 
tribes or Native Americans as a primary beneficiary. For example, we 
reviewed applications for 18 DOJ grant programs and found that tribal 
governments and Native American organizations accounted for over 99 
percent of the applications for the 5 grant programs within the sample 
that specified tribes or Native Americans as a primary beneficiary. 
However, tribal governments and Native American organizations accounted 
for about 1 percent of the applications for the 13 programs in the 
sample that did not specify tribes or Native Americans as a primary 
beneficiary.
    We interviewed officials from DOJ's Office of Justice Programs 
(OJP) and seven HHS operating divisions to obtain their perspectives on 
why tribal governments and Native American organizations might not 
apply for grant programs that do not specify them as a primary 
beneficiary. \22\ They identified various reasons, including that 
tribal governments and Native American organizations might not be aware 
that they are eligible to apply for certain grant programs; might 
believe that their applications to grant programs that do not specify 
tribes or Native Americans as a primary beneficiary will not be 
competitive with other applications; or might prefer to apply for those 
grant programs that specify tribes or Native Americans as a primary 
beneficiary.
---------------------------------------------------------------------------
    \22\ The seven HHS operating divisions were the: Administration for 
Children and Families; Centers for Disease Control and Prevention; 
Health Resources and Services Administration; Indian Health Service; 
National Institutes of Health; Office of Minority Health; and the 
Substance Abuse and Mental Health Services Administration.
---------------------------------------------------------------------------
    We also interviewed representatives from 10 tribal governments and 
Native American organizations, who provided perspectives on whether or 
not a grant program's focus on tribes or Native Americans as a primary 
beneficiary affected their decision to apply for the program. \23\ 
Officials from 6 of 10 tribal governments and Native American 
organizations indicated that they would consider any grant program that 
met the needs of their communities, while the remaining 4 indicated 
that a grant program's focus or lack thereof on tribes or Native 
Americans could affect their ability to apply for it. \24\
---------------------------------------------------------------------------
    \23\ Specifically, we collected perspectives from officials from 
seven federally recognized tribes, one of which included input from an 
affiliated tribal university; and three Native American organizations, 
which included an urban Indian organization; a non-profit that seeks to 
provide social services, education, and behavioral health services; and 
a tribal organization that represents and facilitates services for a 
group of federally recognized tribes.
    \24\ Three of the six tribal governments and Native American 
organizations that indicated that they would consider any grant program 
that met the needs of their communities also indicated a preference in 
some instances for grant programs that focused on tribes or Native 
Americans.
---------------------------------------------------------------------------
    Officials from the 10 tribal governments and Native American 
organizations also identified various federal practices they found 
helpful or challenging when applying for grant programs related to 
preventing or addressing delinquency among Native American youth. \25\ 
When asked what federal practices, if any, were particularly helpful 
when applying to receive federal funding, they most frequently 
responded that they found it particularly helpful to be able to call or 
meet with federal officials if they had questions about or needed help 
on their applications. Regarding the biggest challenges, they cited 
short application deadlines, difficulties collecting data for grant 
program applications, and a scarcity of grant writers and other 
personnel needed to complete a quality application.
---------------------------------------------------------------------------
    \25\ In addition to applying for federal grant programs, some of 
the tribal governments and Native American organizations indicated they 
had also pursued non-federal funding that could help prevent or address 
delinquency among Native American youth. For example, officials from 
one federally recognized tribe explained that they applied for funding 
from the Ford Foundation and the Walmart Foundation. Officials from two 
other federally recognized tribes stated they received grant program 
funding from state governments.
---------------------------------------------------------------------------
    In addition, DOJ OJP and HHS officials provided perspectives on why 
some tribal governments and Native American organizations might be more 
successful in applying for federal funding than others. The officials 
stated, among other things, that larger and better-resourced tribal 
governments and Native American organizations were more successful at 
applying for federal funding and that previously successful grant 
program applicants were more likely to be successful again.
    More detailed information on the perspectives from tribal 
governments, Native American organizations, and agency officials 
regarding the factors they believe affect the ability of tribal 
governments and Native American organizations to apply successfully for 
federal grant programs can be found in our September 2018 report.
    Chairman Hoeven, Vice Chairman Udall, and Members of the Committee, 
this completes my prepared statement. I would be pleased to respond to 
any questions you may have at this time.

   Appendix I: Data Sources for Federal, State and Local, and Tribal 
            Justice Systems by Phase of the Justice Process
    For our September 2018 report, we obtained and analyzed record-
level and summary data from federal, state and local, and tribal 
justice systems from 2010 through 2016. \1\ Figure 1 illustrates the 
data sources we included in our report for each phase of the justice 
process (arrest, adjudication, and confinement) in each justice system 
(federal, state and local, and tribal). Generally, state and local 
entities include those managed by states, counties, or municipalities.
---------------------------------------------------------------------------
    \1\ Generally, record-level data include information about one 
individual at one point in time. In contrast, the summary data we 
obtained generally include information about multiple individuals for a 
certain period--such as a month. See GAO, Native American Youth: 
Involvement in Justice Systems and Information on Grants to Help 
Address Juvenile Delinquency, GAO-18-591 (Washington, D.C.: Sept. 5, 
2018).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Appendix II: GAO Findings Regarding American Indian and Alaska Native 
             Youth Involvement with Tribal Justice Systems
    Comprehensive data from tribal justice systems on the involvement 
of American Indian and Alaska Native (Native American) youth were not 
available. However, in our September 2018 report, we identified and 
reviewed a few data sources that can provide certain insights about the 
arrest, adjudication, and confinement of Native American youth by 
tribal justice systems. \1\ The following is a summary of our analysis 
of data from these sources.
---------------------------------------------------------------------------
    \1\ See GAO, Native American Youth: Involvement in Justice Systems 
and Information on Grants to Help Address Juvenile Delinquency, GAO-18-
591 (Washington, D.C.: Sept. 5, 2018).
---------------------------------------------------------------------------
    Arrests. Although comprehensive data on the number of tribal law 
enforcement agency (LEA) arrests were not available, we obtained and 
reviewed admission records from three juvenile detention centers in 
Indian country managed by the Department of the Interior's Bureau of 
Indian Affairs (BIA). \2\ Based on those records, at least 388 Native 
American tribal youth were admitted to these three facilities in 2016, 
as shown in table 1. In the Northern Cheyenne facility, for which we 
obtained records for 5 years, the number of youth admitted increased 
yearly between 2012 and 2016, from 14 to 204.
---------------------------------------------------------------------------
    \2\ As of April 2018, there were 205 known tribal LEAs, 20 tribally 
operated juvenile detention centers, and three BIA-operated juvenile 
detention centers in Indian country, according to BIA officials. 
Additionally, there were 89 total detention programs, of which 15 
housed Native American youth, as well as adults.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    According to BIA officials, this growth in the number of youth 
admitted to the Northern Cheyenne facility likely reflects an increase 
in admissions of Native American youth from surrounding tribes. 
Specifically, because the Northern Cheyenne facility is centrally 
located, the officials said that the facility admits youth from other 
tribes, which have grown accustomed to sending their youth to the 
facility. BIA officials also noted that the Northern Cheyenne facility 
services an area where there is a high rate of delinquency among youth, 
and because the facility works well with Native American youth 
struggling with delinquency issues, many tribes elect to send their 
delinquent youth to the facility. Further, since 2012, the Northern 
Cheyenne facility increased its bed space and staff, thus increasing 
its capacity to admit more youth, according to BIA officials.
    Even though comprehensive tribal arrest data were not available, we 
reported in September 2018 that the Department of Justice's (DOJ) 
Bureau of Justice Statistics (BJS) was undertaking an effort to 
increase collection of arrest data from tribal LEAs. Specifically, this 
data collection activity is the Census of Tribal Law Enforcement 
Agencies. \3\ This collection activity, which BJS plans to conduct in 
2019, is to capture information including tribal LEA workloads and 
arrests, tribal LEA access to and participation in regional and 
national justice database systems, and tribal LEA reporting of crime 
data into FBI databases.
---------------------------------------------------------------------------
    \3\ See Department of Justice, Bureau of Justice Statistics, Tribal 
Crime Data Collection Activities, 2017 (July 2017); and Department of 
Justice, Bureau of Justice Statistics, Tribal Crime Data Collection 
Activities, 2016 (July 2016).
---------------------------------------------------------------------------
    Adjudication. Comprehensive data were not available to describe the 
extent to which tribal courts processed Native American youth or found 
them guilty. However, BJS concluded a tribal court data collection 
effort--the National Survey of Tribal Court Systems--in 2015. Through 
this survey, BJS gathered information from more than 300 tribal courts 
and other tribal judicial entities on their criminal, civil, domestic 
violence, and youth caseloads, and pretrial and probation programs, 
among other things. \4\ DOJ officials told us that BJS has analyzed the 
data, and plans to release results in the future.
---------------------------------------------------------------------------
    \4\ The National Survey of Tribal Court Systems gathered 
information on the administrative and operational characteristics of 
tribal justice systems (including budgets, staffing, the use of juries, 
and the appellate system); indigent defense services; pretrial and 
probation programs; protection orders; criminal, civil, domestic 
violence, and juvenile caseloads; implementation of various enhanced 
sentencing provisions under the Tribal Law and Order Act of 2010; and 
indigenous or traditional dispute forums operating within Indian 
country.
---------------------------------------------------------------------------
    Confinement. According to data published by BJS, the number of 
youth in Indian country jails declined from 190 in 2014 to 170 in 2016 
(about an 11 percent decrease). \5\
---------------------------------------------------------------------------
    \5\ To determine the number of Native American youth confined in 
tribal operated jails in Indian country, we analyzed data reported by 
BJS in its Jails in Indian Country Survey for 2014, 2015, and 2016. The 
number of Native American youth confined was a mid-year count, as of 
the last weekday in June for each year. According to the 2016 survey 
report, there were at least 18 Indian country jails included in the 
survey, which held juveniles ages 17 and younger.

    The Chairman. Thank you, Dr. Goodwin.
    Ms. Harp.

  STATEMENT OF CAREN HARP, ADMINISTRATOR, OFFICE OF JUVENILE 
 JUSTICE AND DELINQUENCY PREVENTION, U.S. DEPARTMENT OF JUSTICE

    Ms. Harp. Chairman Hoeven, Vice Chairman Udall and members 
of the Committee, I am honored to appear before you today.
    My name is Caren Harp. I am the Administrator of the 
Justice Department's Office of Juvenile Justice and Delinquency 
Prevention.
    OJJDP's mission is to provide national leadership, 
coordination and resources to prevent and respond to juvenile 
delinquency and victimization. We accomplish this mission by 
helping States, tribes and communities develop effective and 
equitable juvenile justice systems.
    OJJDP is one of six components of the Office of Justice 
programs, the Justice Department's primary funding, research 
and statistical arm. Each of these components makes substantial 
investments in tribal public safety and none of those 
investments are more important than the ones affecting Native 
American youth.
    The GAO report issued earlier this month examines many of 
these programs in the context of tribal youth involvement in 
the juvenile justice system. Between fiscal years 2015 and 
2017, the Office of Justice Programs awarded more than $600 
million to address delinquency among Native American youth.
    We supported a tribal youth training and technical 
assistance center, we worked directly with young people through 
our Intertribal Youth Leadership Initiative, and provided 
mentoring opportunities for both on-reservation and off-
reservation youth.
    Support for tribal youth is built into programs across the 
Department of Justice. A significant amount of tribal funding 
comes through the Coordinated Tribal Assistance Solicitation or 
CTAS.
    CTAS allows tribes to apply for more than one grant through 
a single, streamlined application. We have awarded more than 
2,000 grants under this program.
    Our commitment to tribes remains strong. We are awarding 
more than $226 million to tribal communities in fiscal year 
2018 funds. About half of that amount comes under the CTAS 
umbrella. The remainder is allocated under a 3 percent set 
aside of the Crime Victims Fund which will benefit more than 
170 tribal communities.
    The department's investments in tribal youth are extensive 
and span the agency. Our Bureau of Justice Assistance funds 
innovative tribal court models that address delinquency using 
culturally-relevant, restorative justice practices.
    Our Bureau of Justice Statistics initiated the national 
survey of tribal court systems in 2014 and is preparing to 
administer the first census of tribal law enforcement agencies.
    The National Institute of Justice manages a substantial 
portfolio of tribal research that includes studies of violence 
and victimization among tribal youth. Our COPS Office, Office 
for Victims of Crime, Office for the Chief Information Officer 
and the Department's Office of Tribal Justice support the 
Tribal Access Program, TAP as we call it. TAP gives tribes 
access to Federal databases that enable law enforcement to 
share information on registered sex offenders.
    In all of its grant programs, the department builds in 
robust safeguards against waste, fraud and abuse. Our Office of 
Audit Assessment and Management leads our efforts to ensure 
that we manage Federal funds effectively and efficiently.
    We are continuously reviewing and working to improve grant 
management policies, procedures and systems. We regularly 
monitor grantee compliance.
    Finally, I would be remiss if I failed to recognize the 
department's non-grant making components. The Office of Tribal 
Justice and the tribal liaisons in the U.S. Attorney's Offices 
work closely with tribal officials to improve enforcement, 
reduce crime and develop strategies for combating delinquency.
    Their efforts are critical to meeting the needs of tribal 
youth at every phase of the justice process.
    The Department of Justice is fully engaged with tribes in 
improving public safety in Indian Country. We remain especially 
committed to empowering tribal youth to live productive, law 
abiding lives.
    On behalf of my colleagues, I am grateful for the support 
of this Committee. I look forward to working with you to help 
secure a bright future for our American Indian and Alaska 
Native youth.
    Thank you and I look forward to any questions you may have.
    [The prepared statement of Ms. Harp follows:]

  Prepared Statement of Caren Harp, Administrator, Office of Juvenile 
     Justice and Delinquency Prevention, U.S. Department of Justice
    Chairman Hoeven, Vice Chairman Udall, Members of the Committee, it 
is an honor to appear before you today. My name is Caren Harp, and I am 
the Administrator of the Department of Justice's Office of Juvenile 
Justice and Delinquency Prevention (OJJDP). OJJDP's mission is to 
provide national leadership, coordination, and resources to prevent and 
respond to juvenile delinquency and victimization. Our goal is to help 
states, tribes, and communities develop and implement effective and 
equitable juvenile justice systems that enhance public safety, hold 
youth accountable, and empower youth to live productive, law-abiding 
lives. As OJJDP Administrator, I oversee OJJDP grant programs and other 
efforts that meet the Department's juvenile justice priorities.
    OJJDP is one of six components of the Office of Justice Programs 
(OJP), the Justice Department's primary grant-making, research, and 
statistical arm. \1\ OJJDP and its fellow offices invest substantial 
resources each year in tribal public safety activities, none more 
important than those that affect Native American youth. The Government 
Accountability Office's report, Native American Youth: Involvement in 
Justice Systems and Information on Grants to Help Address Juvenile 
Delinquency, \2\ (GAO Report), examined many of these programs, placing 
them in the context of tribal youth involvement in our federal, state 
and local, and tribal justice systems.
---------------------------------------------------------------------------
    \1\ Collectively, OJP, the Office on Violence Against Women (OVW), 
and the Office of Community Oriented Policing Services (COPS) are the 
Department's grant-making components.
    \2\ GAO-18-591, Native American Youth: Involvement in Justice 
Systems and Information on Grants to Help Address Juvenile Delinquency, 
September 5, 2018. The report examines unique challenges faced by 
Native American youth, and addressed two major areas: (1) what 
available data shows about the number and characteristics of Native 
American youth in federal, state and local, and tribal justice systems, 
and (2) federal discretionary grants that could help prevent and 
address delinquency among Native American youth as well as access to 
those grants.
---------------------------------------------------------------------------
    The GAO Report outlines the Department's considerable funding 
investments in tribal communities, continuing to this day. In FY 2018, 
the Department is awarding more than $226 million to improve public 
safety in tribal communities. About half of that--more than $113 
million--comes through a mechanism called the Coordinated Tribal 
Assistance Solicitation (CTAS), which allows tribes to apply for more 
than one grant by submitting a single application. CTAS also gives 
tribes greater flexibility to use grant programs to address their 
criminal justice and public safety needs. More than 130 tribes, Alaska 
Native villages, tribal consortia, and tribal designees will receive 
grants under the CTAS umbrella.
    In addition, OJP's Office for Victims of Crimes (OVC) will be 
awarding grants under the Tribal Victim Services Set-Aside Program, a 
3-percent set-aside of the Crime Victims Fund authorized by the 
Consolidated Appropriations Act, 2018. More than 170 Native American 
and Alaska Native communities will benefit from this new source of 
funding, which is designed to expand and improve services to victims 
who live in tribal communities.
    The Department's investments in Indian country extend beyond these 
grant resources. The GAO report addresses many of these efforts.
I. Justice System Data Collection
    A number of Department of Justice components contributed to the GAO 
Report and are involved in these data collection and reporting efforts: 
the Federal Bureau of Investigation, the U.S. Marshals Service, the 
Executive Office for U.S. Attorneys, the Bureau of Prisons, the Bureau 
of Justice Statistics (BJS), and OJJDP.
    The Tribal Law and Order Act of 2010 (TLOA), P.L. 111-211,  201(a) 
at 124 Stat. 2261, directed the Department to collect data related to 
crimes in tribal communities. BJS is set to administer the first Census 
of Tribal Law Enforcement Agencies in April 2019. BJS also completed 
the first National Survey of Tribal Court Systems, which had an overall 
80 percent response rate among the 237 tribal courts during 2014. \3\ 
These data collections specifically gather needed information on the 
administration and operational characteristics of these core tribal 
justice agencies.
---------------------------------------------------------------------------
    \3\ Bureau of Justice Statistics, Tribal Crime Data Collection 
Activities, 2016-2018.https://www.bjs.gov/content/pub/pdf/tcdca1618.pdf
---------------------------------------------------------------------------
    In addition, BJS established several tribal justice panels to 
ensure that tribal governments, their law enforcement agencies, and 
their courts have a central role in the development, design, and 
implementation of the data collection programs. These tribal justice 
panels comprise tribal leaders, law enforcement officials, and court 
representatives from across the country, along with representatives 
from OJP, the Department's Office of Tribal Justice (OTJ), the FBI's 
Indian Country Crimes Unit, and the Department of the Interior's Office 
of Justice Services. Their role is to ensure a tribally-centered and 
coordinated approach to establishing data collection systems that 
address tribal public safety challenges and close the gaps in knowledge 
about crime and justice in Indian country. TLOA requires BJS to report 
to Congress annually its activities related to the tribal data 
collection analyzed. In July 2018, BJS released the Tribal Crime Data 
Collection Activities, 2016-2018, which summarizes the efforts to date.
II. Grant Programs and Resources that Address Juvenile Delinquency
    The Department provided GAO application and award information from 
73 FY 2015-FY 2017 grant programs, representing approximately $605 
million in grants designed to help prevent or address juvenile 
delinquency among youth. \4\ DOJ and HHS collectively awarded $207.7 
million to tribal governments and Native American organizations. HHS 
awarded $106.5 million and the Department awarded $101.2 million. \5\ 
The Department's grants were funded by OJP components: OJJDP; OVC; the 
Bureau of Justice Assistance (BJA); the National Institute of Justice 
(NIJ); and the Office of Sex Offender Sentencing, Monitoring, 
Apprehending, Registering, and Tracking (SMART Office).
---------------------------------------------------------------------------
    \4\ GAO Report, p. 57.
    \5\ GAO Report, p. 57.
---------------------------------------------------------------------------
    The following section includes details on CTAS grants that have 
supported efforts to address juvenile delinquency and support tribal 
communities.
Coordinated Tribal Assistance Solicitation (CTAS)
    OJJDP, OVC, BJA, OVW, and the Office of Community Oriented Policing 
Services (COPS) have coordinated funding to support CTAS by Purpose 
Area since FY 2010. \6\ By the end of FY 2018, the Justice Department 
will have awarded more than 2,000 CTAS grants totaling more than $940 
million to hundreds of American Indian and Alaska Native communities. 
Through CTAS, applicants apply under one solicitation, which allows 
tribes to plan comprehensively and strategically allocate resources. In 
addition, one budget worksheet is required, one system of submitting 
grants electronically is used, and application support is available 
through a dedicated Response Center.
---------------------------------------------------------------------------
    \6\ Applicants have the option to select the Purpose Area(s) that 
address their public safety, criminal and juvenile justice and 
victimization needs. For the FY 2018 application period, there were 
nine Purpose Areas: (1) Public Safety and Community Policing (COPS 
Office), (2) Comprehensive Tribal Justice Systems Strategic Planning 
(BJA), (3) Tribal Justice Systems (BJA), (4) Tribal Justice Systems 
Infrastructure Program (BJA), (5) Violence Against Women Tribal 
Governments Program (OVW), (6) Children's Justice Act Partnerships for 
Indian Communities (OVC), (7) Comprehensive Tribal Victim Assistance 
Program (OVC), (8) Trial Juvenile Healing to Wellness Courts (OJJDP), 
and (9) Tribal Youth Program (OJJDP).
---------------------------------------------------------------------------
    The Department provides training and technical assistance for 
tribes interested in applying for CTAS. Each year, the Department 
organizes a webinar series that provides detailed information on each 
section of the solicitation. In FY 2017, the Department offered two in-
person Accessing Grants to Strengthen Tribal Justice System Capacity 
grant writing workshops targeting tribes that historically were 
unsuccessful for receiving funds under the CTAS program. The workshops 
were offered on January 18-19 in Columbia, South Carolina, and January 
24-25 in Anchorage, Alaska. Many tribes that participated in the 
training did go on to receive funding in the subsequent application 
cycles. The workshops helped increase the success rate of the Cherokee 
Nation in Oklahoma from 37 percent to almost 50 percent for receiving 
grants in FY 2017. It helped raise the Nez Perce Tribe's success rate 
for receiving CTAS grant awards to more than 40 percent, as well.
    OJJDP also has an online tool that offers information on developing 
high-quality CTAS applications. \7\ This resource is available to all 
federally recognized tribes.
---------------------------------------------------------------------------
    \7\ The tool can be found at https://tribalyouthprogram.org/
funding-opportunities/2018-ctas/. This guide contains strategies to: 
(1) Read and comprehend a complex grant solicitation (2) Coordinate a 
robust grant-writing team (3) Identify and articulate the needs of the 
community through data driven processes (4) Generate and capture ideas 
and solutions from the community (5) Organize key community players to 
execute the proposed program.
---------------------------------------------------------------------------
CTAS Purpose Area 4
    Under CTAS Purpose Area 4, Tribal Justice System Infrastructure 
Program, tribes receive funding to renovate, expand, or replace 
existing buildings (prefabricated or permanent modular facilities 
only). These modifications enhance staff, resident, detainee, and 
inmate safety and security for the following tribal justice-related 
facility types: single jurisdiction or regional tribal correctional 
facilities, correctional alternative or treatment facilities, 
multipurpose justice centers (including police departments, courts, 
and/or corrections), and transitional living facilities (halfway 
houses). Ensuring that these supports are in place enhances the safety 
and security of Native youth.
    One example is the Eight Northern Indian Pueblos Council, which 
constructed the Butterfly Healing Center, a residential and outpatient 
treatment center for Native American youth ages 13 through 18. Prior to 
constructing the center, the Council lacked alternative sentencing 
options and resources to divert juveniles from receiving formal 
criminal justice records in the state or federal system. The tribe now 
provides treatment for youth that covers spiritual, physical, 
psychological, medical, and cognitive health.
    Another example of CTAS's impact is the work of the Yurok Tribe--
the largest tribe in California. As a result of BJA funding, the Yurok 
Tribe was able to construct a fully functional Multipurpose Justice 
Center that accommodates a courtroom, mediation area, self-help center, 
probation, judge's chambers, clerk of the court, administration area, 
public restroom and lobby areas, and cuff bench for in-custody 
defendants. With additional BJA funding, the tribe is expanding the 
Justice Center to incorporate the Yurok Tribal Police.
CTAS Purpose Area 6
    Purpose Area 6, the Children's Justice Act Partnership for Indian 
Communities Program (CJA), assists American Indian and Alaska Native 
communities in developing, establishing, and operating programs to 
improve the investigation, prosecution, and handling of child abuse 
cases, especially child sexual abuse, by providing trauma-informed, 
culturally appropriate services to child abuse victims and their 
families.
CTAS Purpose Area 8
    CTAS Purpose Area 8, Tribal Juvenile Healing to Wellness Courts, 
supports tribes seeking to develop new court-based programs to respond 
to the alcohol and substance use issues of juveniles and young adults 
under the age of 21. Federally recognized tribes that have an existing 
court system and are interested in developing a new Justice Healing to 
Wellness Court are eligible to apply.
    Another example of the impact of CTAS funding is the work of the 
Confederated Tribes of Coos, Lower Umpqua and Siuslaw Indians' Tribal 
Court, which has enhanced services to include a Youth Wellness Court. 
The tribe used grant funds to hire an Associate Judge, Tribal 
Presenting Officer (prosecutor), and Tribal Defense Advocate (public 
defender). The court holds weekly sessions for wellness cases and the 
Wellness Case Manager works with Tribal Youth prevention programs, 
which are funded through a CTAS Purpose Area 9 Tribal Youth Program 
grant.
CTAS Purpose Area 9
    CTAS Purpose Area 9, Tribal Youth Program, supports and enhances 
tribal efforts to prevent and reduce juvenile delinquency and ensure a 
fair and beneficial juvenile justice system response to American Indian 
and Alaska Native youth. The funding in this purpose area is available 
to create, expand, or strengthen tribal-driven approaches along the 
juvenile justice continuum, from prevention to intervention and 
treatment.
    Tribes successfully employ a variety of approaches to their youth 
programming using Purpose Area 9 funding. These approaches include 
equine therapy, diversion, and Tribal Court Appointed Special 
Advocates, a cultural tribal youth program based on a model known as 
the Healing Canoe Journey, which is considered a best practice model in 
cultural prevention for Pacific Northwest Tribes.
Office of Juvenile Justice and Delinquency Prevention
    OJJDP also funds other initiatives that address juvenile 
delinquency in Indian Country, including the Tribal Youth Training and 
Technical Assistance program, the National Intertribal Youth Leadership 
Initiative, and several mentoring initiatives.

  <bullet> The OJJDP Tribal Youth Training and Technical Assistance 
        Center provides comprehensive training and technical assistance 
        for OJJDP tribal grantees. The Center works with grantees 
        through a strategic planning process and offers ongoing support 
        throughout the course of their grant program. All tribes, 
        regardless of whether they are funded by OJJDP, are eligible to 
        participate in an array of trainings, webinars, and online 
        virtual simulation trainings.

  <bullet> The National Intertribal Youth Leadership Initiative builds 
        on the successes of past OJJDP Tribal Youth Summits and expands 
        the leadership development support that OJJDP offers to tribal 
        youth. The initiative supports regional learning events for 
        tribal youth focused on developing leadership skills. Building 
        on these events, the youth will develop community service 
        projects related to juvenile delinquency issues in their 
        community. This may include a community awareness project on 
        opioid abuse, a presentation on positive decisionmaking skills, 
        supporting a drug take-back day, or other related activities.

  <bullet> The Department also funds a number of mentoring programs 
        through the Mentoring Opportunities for Youth Initiative 
        solicitation. Mentoring promotes positive behaviors, attitudes, 
        and outcomes for youth and reduces risk factors associated with 
        delinquency and juvenile justice system involvement, such as 
        poor school attendance, school failure, and alcohol and drug 
        abuse. It has been shown to improve academic performance and/or 
        social or job skills, support behavioral or other personal 
        development, and reduce consumption of alcohol and other drugs. 
        While these funds support mentoring programs operated by 
        mentoring organizations, the services may be available to 
        tribal youth (on and off reservation). Starting in FY 2015, 
        OJJDP added a requirement to Category 1: National Mentoring 
        within the Mentoring Opportunities for Youth solicitation that 
        applicants must target mentoring services and programs to 
        American Indian (AI) and Alaska Native (AN) youth both on and 
        off reservations. In addition, OJJDP created a category in the 
        FY 2018 Mentoring Opportunities for Youth solicitation 
        specifically identifying tribes as eligible for $1.25 million 
        each to support mentoring services for youth impacted 
        byopioids.

Bureau of Justice Assistance
    BJA funds a number of programs that address juvenile delinquency. 
For example, BJA sponsored a pilot program and practice guide to assist 
with the development of joint jurisdiction courts. Jurisdiction is 
exercised jointly when the tribal court and state or federal court 
judges convene to exercise their respective authority simultaneously. 
These courts bring together justice system partners and allow the 
system to work collaboratively and creatively toward better results for 
individuals involved in the adult and juvenile justice systems. There 
are seven active joint jurisdiction courts and others in the planning 
process. More information is available on the joint jurisdiction courts 
webpage at https://walkingoncommonground.org/.
    Another example is the Shingle Springs Rancheria and El Dorado 
County Superior Court Family Wellness Court, which provides system-
involved youth and their families with a court-supervised alternative 
that emphasizes culturally-appropriate restorative justice practices. 
BJA funded the initial joint jurisdiction court pilot sites, then 
provided intensive technical assistance to three regions to plan their 
joint jurisdiction courts. BJA's work on this initiative informed an 
update to A Manual for Developing Tribal, Local, State & Federal 
Justice Collaborations, Second Edition. This publication can assist 
tribes, states, counties, and others in planning a joint jurisdiction 
collaboration.
National Institute of Justice
    NIJ has supported research and evaluation studies on tribal crime 
and justice issues since the 1980s. In partnership with OVC and OJJDP, 
it is funding the Tribal Youth Victimization Study. This effort will 
develop a process for collecting self-report data on American Indian 
and Alaska Native youth violence and victimization. NIJ also has 
developed a comprehensive research program on violence against American 
Indian and Alaska Native women consisting of several projects that will 
be accomplished over an extended period. The primary goal of these 
projects is to document the prevalence and nature of violence against 
Indian women living on sovereign tribal lands.
Grant Oversight and Management
    Guarding against waste, fraud, and abuse with both tribal and non-
tribal grantees is a top priority of the Department. OJP's Office of 
Audit, Assessment, and Management (OAAM) works to improve the 
efficiency and effectiveness of justice programs and operations by 
ensuring oversight and review of grants management policy and 
procedures, grants management systems, and grants compliance. OAAM 
continually improves and refines our risk tools and makes improvements 
to our oversight processes.
Tribal Access Program
    The Tribal Access Program (TAP) funded by SMART, COPS, and OVC, and 
supported by OTJ and Justice Management Division's Office of the Chief 
Information Officer, offers tribes valuable tools to improve public 
safety. TAP allows tribes access to federal databases so that law 
enforcement may more quickly share information on registered sex 
offenders and protection orders. It also enables tribes to more 
effectively serve and protect their communities by ensuring the 
exchange of critical data across the Criminal Justice Information 
Services systems and other national crime information systems, for both 
civil and criminal purposes.
    The SMART Office also is working regularly with federally 
recognized tribes that have elected to implement the Sex Offender 
Registration and Notification Act (SORNA). Over 130 tribes have already 
substantially implemented SORNA and more continue to work towards this 
goal.
Additional DOJ Tribal Collaboration
    In addition to grant programs, the Justice Department remains 
committed to addressing juvenile delinquency at every phase of the 
justice process (arrest, adjudication, and confinement) as it 
implements TLOA. OTJ and the network of tribal liaisons in the United 
States Attorneys' offices and specialists throughout the country 
collaborate with tribes to improve law enforcement functions and reduce 
crime. For example, each U.S. Attorney's office with jurisdiction in 
Indian Country regularly consults with tribes to develop strategies to 
combat juvenile delinquency. These offices each have a tribal liaison 
to link efforts between the Department and tribal leadership. The 
Executive Office for U.S. Attorneys also trains federal, state, local, 
and tribal attorneys and law enforcement staff on law enforcement 
issues in Indian country.
    As the Department continues to enhance its public safety efforts in 
tribal communities, we remain committed to addressing juvenile 
delinquency while empowering youth to live productive, law-abiding 
lives. Thank you, and I look forward to addressing your questions.

    The Chairman. Thank you, Ms. Harp.
    Deputy Assistant Secretary Tahsuda.

          STATEMENT OF JOHN TAHSUDA, PRINCIPAL DEPUTY 
         ASSISTANT SECRETARY FOR INDIAN AFFAIRS, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Mr. Tahsuda. Thank you, Mr. Chairman.
    If I could briefly clarify, thank you for mentioning my 
tenure with the Committee. I wanted to make sure I clarify that 
during my tenure at the Committee, I worked for Senator McCain 
for two years when he was the Chairman, for approximately one 
year as the Deputy Staff Director; and approximately one year 
as the Staff Director. I wanted to make sure that was clear on 
the record.
    Thank you, Chairman Hoeven, Vice Chairman Udall, and 
members of the Committee.
    I am the Principal Deputy Assistant Secretary for Indian 
Affairs at the Department of the Interior. Thank you for the 
opportunity to provide a statement on behalf of the department.
    The department recognizes the tremendous challenges faced 
by many juveniles in Indian Country. Over a quarter of these 
children live in poverty, compared to 13 percent of the general 
population.
    Native children are exposed to violence at extremely high 
levels, and are at a greater risk of experiencing trauma 
compared to their non-Native peers. According to the U.S. 
Department of Justice's Defending Childhood Initiative, 
exposure to violence causes major disruptions of basic 
cognitive, emotional and brain functioning essential for 
optimal development and, thus, if exposure to violence goes 
untreated, these children are at a significantly greater risk 
than their peers for aggressive, disruptive behaviors; school 
failure; and alcohol and drug abuse.
    In light of these significant challenges facing our Native 
youth, the BIA has recognized that the conventional juvenile 
justice approach of simply incarcerating juveniles is often 
ineffective and may, in fact, increase delinquency rates.
    The BIA has long urged tribal policy makers to transition 
toward less punitive models of juvenile justice. We are 
encouraged that the juvenile systems do offer solution-focused 
alternatives to incarceration and more restorative approaches 
and early intervention options for juveniles within Indian 
Country.
    The BIA Office of Justice Services regularly engages in 
crime prevention and community involvement projects to reach 
youth at the local level throughout Indian Country. Local BIA 
and tribal law enforcement agencies often host Law Enforcement 
Days where officers can display and demonstrate patrol and 
emergency response vehicles and equipment, K-9s, and advanced 
technologies.
    These events, along with Toys for Tots, Shop with a Cop, 
DARE, and suicide awareness/prevention events, seek to connect 
with juveniles in a consistent and positive manner.
    The BIA also funds 16 School Resource Officers located at 
Indian Country schools. These police officers work full time in 
the child's environment, providing presentations on stranger 
danger, anti-bullying, and the dangers of gangs and illegal 
drugs.
    Utilizing these officers to build trust with elementary and 
middle school age children in numerous Indian communities is 
our fundamental prevention component and evidences our 
commitment to keeping juveniles out of the justice system when 
at all possible.
    The BIA conducts Tribal Court Assessments, which include a 
component to evaluate the challenges and successes of juvenile 
justice systems in Indian Country. For example, Juvenile 
Wellness Courts provide options for effective drug and alcohol 
treatment programs as well as bringing in culturally-based 
practices, such as ``traditional talking circles'' which have 
been effective in combating truancy in some tribal courts.
    The BIA has also funded juvenile specific requests from 
various tribal courts. For example, the Pueblos of San 
Ildelfonso and San Felipe recently received funding to train 
their probation officers in juvenile issues, and the Rosebud 
Sioux Tribal Court received funding for two juvenile probation 
officers.
    The Lower Sioux Indian Community in Minnesota has a 
juvenile population that represents 38 percent of tribal 
members. The BIA was able to provide funding to the Lower Sioux 
Tribal Court for a truancy prevention specialist to work with 
youth who exhibit challenging behaviors and reduce the number 
of youth involved in truant activities.
    The BIA has also funded public defender positions in tribal 
courts to work specifically with youth involved in the justice 
system. Specifically, Healing to Wellness Courts require the 
youth to be represented by a public defender to attend the 
weekly staffing meetings, subsequent multidisciplinary team 
meetings, and the court hearing.
    We agree with our colleagues at the Department of Justice 
that if youth come into contact with the juvenile justice 
system, the contact should be both just and beneficial. In 
certain circumstances, incarceration is appropriate. The BIA 
works to ensure that academic education and mental health 
counseling are implemented inside of BIA and tribal youth jails 
to appropriately support those youth needing incarceration.
    In BIA-run juvenile detention facilities, the Office of 
Justice Services contracts to provide qualified teachers and 
educational support for juveniles. Over the past year, we 
provided educational support to 258 juveniles of varying ages, 
academic and maturity levels, incarceration periods, and 
interests. A number of positive outcomes were achieved, 
including strong engagement and participation in academic 
activities by juveniles with past disruptive behaviors in 
school.
    Again, thank you for the opportunity to provide this 
statement. The BIA is committed to continuing its efforts in 
early intervention to reach youth throughout Indian Country and 
provide solution-focused and restorative approaches to minimize 
repeated engagement with the justice system.
    I look forward to working with the Committee on juvenile 
justice issues affecting our Native youth. I am happy to answer 
any questions the Committee may have.
    [The prepared statement of Mr. Tahsuda follows:]

    Prepared Statement of John Tahsuda, Principal Deputy Assistant 
     Secretary For Indian Affairs, U.S. Department of the Interior
    Good afternoon, Chairman Hoeven, Vice Chairman Udall, and Members 
of the Committee. My name is John Tahsuda and I am the Principal Deputy 
Assistant Secretary for Indian Affairs at the Department of the 
Interior. Thank you for the opportunity to provide a statement on 
behalf of the Department. The Department recognizes the tremendous 
challenges faced by many juveniles in Indian Country. As indicated in 
the Government Accountability Office report that is the focus of this 
hearing, Native children are among the most vulnerable groups of 
children in the United States.
    More than a quarter of these children live in poverty, compared to 
13 percent of the general population. Native children are exposed to 
violence at extremely high levels, and are at a greater risk of 
experiencing trauma compared to their non-Native peers. According to 
the U.S. Department of Justice's (DOJ) Defending Childhood Initiative, 
exposure to violence causes major disruptions of basic cognitive, 
emotional and brain functioning that are essential for optimal 
development and, thus, if exposure to violence goes untreated, these 
children are at a significantly greater risk than their peers for 
aggressive, disruptive behaviors; school failure; and alcohol and drug 
abuse.
    In light of these significant challenges facing our Native youth, 
the BIA has recognized that the conventional juvenile justice approach 
of simply incarcerating juveniles is often ineffective and may, in 
fact, increase delinquency rates. The BIA has long urged tribal policy 
makers to transition toward less punitive models of juvenile justice. 
The BIA also encourages juvenile systems to offer solution-focused 
alternatives to incarceration and more restorative approaches and early 
intervention options for juveniles within Indian Country.
    The BIA Office of Justice Services regularly engages in crime 
prevention and community involvement projects to reach youth at the 
local level throughout Indian Country. Local BIA and tribal law 
enforcement agencies often host ``Law Enforcement Days'' where officers 
can display and demonstrate patrol and emergency response vehicles and 
equipment, K-9s, and advanced technologies. These events, along with 
Toys for Tots, Shop with a Cop, DARE, and suicide awareness/prevention 
events, seek to connect with juveniles in a consistent and positive 
manner.
    The BIA also funds 16 School Resource Officers located at Indian 
Country schools. These police officers work full time in the child's 
environment, providing presentations on stranger danger, anti-bullying, 
and the dangers of gangs and illegal drugs. Utilizing these officers to 
build trust with elementary and middle school age children in numerous 
Indian communities is our fundamental prevention component and 
evidences our commitment to keeping juveniles out of the justice system 
when at all possible.
    The BIA conducts Tribal Court Assessments, which include a 
component to evaluate the challenges and successes of juvenile justice 
systems in Indian Country. For example, Juvenile Wellness Courts 
include options for effective drug and alcohol treatment programs as 
well as bringing in culturally-based practices, such as ``traditional 
talking circles'' which have been effective in combating truancy in 
some tribal courts.
    The BIA has also funded juvenile specific requests from various 
tribal courts. For example, the Pueblos of San Ildelfonso and San 
Felipe recently received funding to train their probation officers in 
juvenile issues, and the Rosebud Sioux Tribal Court received funding 
for two juvenile probation officers. The Lower Sioux Indian Community 
in Minnesota has a juvenile population that represents 38 percent of 
Tribal members. The BIA was able to provide funding to the Lower Sioux 
court for a Truancy Prevention Specialist to work with youth who 
exhibit challenging behaviors and reduce the number of youth involved 
in truant activities, and to address the adverse effects of those 
activities.
    The BIA has also funded public defender positions in tribal courts 
to work specifically with youth involved in the justice system. 
Specifically, Healing to Wellness Courts require the youth to be 
represented by a public defender to attend the weekly staffing meetings 
and subsequent multi-disciplinary team meetings and the court hearing. 
Tribal courts at Bay Mills and Leech Lake have received funding for 
Juvenile Public Defenders as well as Juvenile Case Wellness Managers 
for Healing to Wellness Courts.
    In Alaska, the BIA funded the Central Council of the Tlingit and 
Haida Indian Tribes' request for a Juvenile Healing to Wellness Court, 
and the Native Village of Barrow was funded for a Juvenile Intake 
Program position within their court. According to the Barrow court, the 
opioid crisis is affecting many of the youth, and the Juvenile Intake 
Program will assist in providing culturally-specific assistance to 
those youth in crisis.
    We agree with our colleagues at the Department of Justice that if 
youth come into contact with the juvenile justice system, the contact 
should be both just and beneficial. In certain circumstances, 
incarceration is appropriate. The BIA works to ensure that academic 
education and mental health counseling are implemented inside of BIA 
and tribal jails to appropriately support those youth needing 
incarceration.
    In BIA-run juvenile detention programs, the Office of Justice 
Services enters into commercial contracts to provide qualified teachers 
and educational support for juveniles. Over the past year, we provided 
educational support to 258 juveniles of varying ages, academic and 
maturity levels, incarceration periods, and interests. A number of 
positive outcomes were achieved, including strong engagement and 
participation in academic activities by juveniles with past records of 
disruptive behaviors in school. Overall, discipline issues in the 
classrooms were largely non-existent, and academic credit was 
maintained for some juveniles when they transitioned back to their 
schools. Further, multiple juveniles requested to study for the GED or 
HiSET tests.
    A current Memorandum of Agreement between the BIA, Bureau of Indian 
Education, and the Department of Health and Human Services (HHS) 
outlines commitments to ensure that appropriate mental health 
counseling is implemented effectively inside juvenile detention 
centers. Our common goal continues to focus on improving the good 
health, wellbeing and proper placement for Native American youth.
    Finally, the BIA, in conjunction with the DOJ Office of Juvenile 
Justice and Delinquency Prevention, has developed a comprehensive Model 
Juvenile Code designed to incorporate assessments that identify needs 
and prescribe services and solutions to address those needs by working 
with HHS and incorporating all types of services available. The hope is 
to create options for tribes to incorporate much needed services 
including specialized traditional remedies that address issues 
affecting Native juveniles in crisis.
    A number of the BIA activities I have described are also vitally 
important to reducing recidivism for juveniles. For example, BIA's 
educational programs for incarcerated juveniles assist in preparing 
them to function outside the justice system and have resulted in strong 
engagement and participation in academic activities by juveniles with 
past records of disruptive behaviors in school. Wellness Courts funded 
by BIA help to reduce recidivism by providing options for effective 
drug and alcohol treatment programs and cultural-specific assistance. 
BIA also staffs a Recidivism Coordinator in the Office of Justice 
Services who has been working closely with the Pueblos of San Felipe 
and San Ildefonso and judges from those Pueblos on juvenile recidivism. 
These judges also serve on the U.S. Sentencing Commission Indian Task 
Force, which has made recidivism one of their priorities.
    BIA is also focusing on preventing the need for juvenile 
incarceration, through the BIA's School Resource Officer program, 
discussed above, which works to build trust with elementary and middle 
school age children in numerous Indian communities.
    Juvenile recidivism could be further reduced through a number of 
avenues. A recently expired recidivism program provided the authorities 
and resources to assist in addressing juvenile recidivism. State 
notification to tribes when a juvenile who is a tribal member interacts 
with the justice system (including when the issue occurs off 
reservation) allows a tribe to coordinate with the state to provide 
resources to the juvenile to keep the juvenile from re-offending. The 
most pressing need, however, is the need to ensure access to services.
    Juveniles within the state and tribal justice systems are in 
desperate need of services, such as mental health counseling, substance 
abuse counseling, vocational training, and life skills training. These 
items are often court-ordered if the services are available. At 
present, in many tribal courts, these services are not readily 
available. Additionally, detention facilities continue to face 
obstacles in obtaining medical and mental health treatment for adult 
and juvenile inmates. Likewise, Wellness Courts are in need of case 
managers and traditional mentors to assist juveniles in the system, 
particularly since traditional and community means are often more 
successful in addressing recidivism in the juvenile community.
    Again, thank you for the opportunity to provide this statement. The 
BIA is committed to continuing its efforts in early intervention to 
reach youth throughout Indian Country and provide solution-focused and 
restorative approaches to minimize repeated engagement with the justice 
system. I look forward to working with the Committee on juvenile 
justice issues affecting our Native youth.
    I am happy to answer any questions the Committee may have.

    The Chairman. Thank you.
    Judge Abinanti.

  STATEMENT OF HON. ABBY ABINANTI, CHIEF JUDGE, YUROK TRIBAL 
                             COURT

    Ms. Abinanti. Good afternoon to Yurok's Senator McCain. 
[Greeting in native tongue.]
    I thank you for this opportunity to address you. I 
appreciate the words I have heard from you all today. The words 
I have heard from the staff people here are right and they have 
given you the information that you need to make a start. I 
appreciate that this is happening.
    I would say the best information is always going to come 
from the people you are trying to help. When you look at the 
situation in our homes and our homelands, the border towns, 
including those children, the rural areas in America are 
suffering. They are suffering because we are not given enough 
help. I do not want anybody's children left behind because it 
is not right. It is not the world's way and it is not ever 
acceptable to any of us.
    As we help ourselves in the programs we set up and I try to 
set up, I try to work with the children who come before me, all 
of the children. I feel a responsibility to them, as you must 
also.
    I would say looking at all those numbers, they are horrible 
numbers, they are not just numbers; they are children. They 
have names and faces. We need to say what can we do to keep 
this from having? A lot of it is going to be related to 
education and helping put out teams, as the Bureau indicated, 
to help our children stay in school. You cannot run any nation 
in the world now with 11-year-old dropouts. I have more 11-
year-old dropouts than you ever want to know.
    That cannot be allowed to continue. It needs a 
strengthening of infrastructure in the villages. We were 
invaded a long time ago, we picked up a lot of bad habits and 
bad things have happened.
    We are ready to walk away from that and walk into the 
future with our partners in our rural communities, to try to 
say to each other this is what we need to do to go forward. We 
need to work with each other. These programs need to be 
available to all of our children in these schools to move 
forward. We cannot have the truancy rates that we have now and 
expect anything good to happen because it will not.
    When I talk about infrastructure, I am talking about what 
happens when you have a village, you have an invasion and you 
have now. Today, you call the village an infrastructure. You 
have to know these children and you have to get them to school. 
You cannot have them wandering around during the day. You 
cannot have them unhappy.
    As talked about, historical trauma was a real event and 
those real events result in real behavior. We must learn, as 
the adults in their community, to overcome that behavior so we 
can help them through their schooling so they are prepared to 
come here, talk with you, work with you, and help this Country 
move forward.
    When we look at the concepts of restorative justice and 
working together, truly we are looking at taking 
responsibility. To me, that is what I mean as a Yurok when I 
say restorative justice. We are responsible to and for, and you 
must exercise that to be a Yurok. There is no other way. That 
is my expectation of you. That is what you will do.
    We need help to do that. We need help for our adults to 
learn how to do that and how to keep their kids in school. It 
is not something we had. Somehow, people skipped over all that 
learning process and expect us to do it. It does not happen 
that way.
    You have to create an infrastructure that supports it. I am 
saying all these numbers, all these facts, all of those were 
true, but when you look to an infrastructure, look to one that 
creates a systemic change for our children. In my mind, that 
has to be related to the schools.
    Thank you.
    [The prepared statement of Ms. Abinanti follows:]

  Prepared Statement of Hon. Abby Abinanti, Chief Judge, Yurok Tribal 
                                 Court
Introduction
    Good afternoon Chairman and distinguished Committee members. I am 
Abby Abinanti, Chief Judge of the Yurok Tribal Court, and I am a Yurok 
Tribal member. I am a graduate of Humboldt State College and the 
University of New Mexico School of Law. When I was admitted to the 
California State Bar in 1974, I was the first California Native woman 
admitted to the California State Bar. I am one of a very limited number 
of attorneys who have been practicing tribal child welfare law since 
prior to the 1978 enactment of the Indian Child Welfare Act. I served 
as a California Superior Court Commissioner for the City and County of 
San Francisco assigned to the Unified Family Court for the 18 years 
before retiring in September 2011. I have continued to serve as Chief 
Judge for the Yurok Tribal Court since my appointment in March 2007, 
and run the Yurok Tribal Court's Wellness Court Program. Additional 
tribal court experience includes serving as Chief Magistrate, Court of 
Indian Offenses, for the Hoopa Valley Indian Reservation from 1983-1986 
and as a Judge by special appointment for many other tribal courts 
including Shoshone-Bannock Tribal Court (1985), Hopi Tribal Court 
(1986), and Colorado River Indian Tribe (1994). I have served as the 
President of the Board of Directors of the Tribal Law and Policy 
Institute since its establishment in 1996.
    The Yurok Tribe is the largest federally recognized tribe in 
California. The Tribe's reservation, the second largest in California 
is located on the lower Klamath River in Humboldt and Del Norte 
Counties in Northern California. The Yurok Reservation extends for one 
mile on either side of the Klamath River, from the Pacific Ocean at the 
mouth of the river to upstream approximately 45 miles to just above the 
Yurok village of Weitchpec and the confluence with the Trinity River.
    While our tribal membership is approximately 6,200, there are more 
than 10,000 Yurok descendants living on the reservation and throughout 
the most rural areas Del Norte and Humboldt Counties. The Tribe has a 
very active culturally based Tribal Court and Education and Social 
Services Departments that provide services to Yurok families, including 
youth and juvenile delinquents. The Tribe works closely with Del Norte 
and Humboldt Counties to provide services.
    As my testimony will explain, the GAO report is a positive step 
toward gathering information and data regarding Native American youth 
in involvement in the justice system and grants to support such work. 
There is a great need for more accurate data regarding tribe specific 
juvenile involvement. This Committee should consider authorizing a 
pilot project to develop data collection systems to track Native 
American juvenile justice statistics. Further, there should be an 
increase in educational grants to tribes directly as a means to prevent 
juvenile delinquent behavior. Finally, if efforts through education 
fail, and Native American youth find themselves in the justice system, 
Tribal Courts are best suited to provide restorative justice that leads 
to positive lifelong results. Federal funding to support tribal courts 
in PL-280 states should be increased as well as tribal court 
jurisdiction to process juvenile claims.
Discussion
I. More Data Is Needed Regarding Native American Youth In Justice 
        Systems
    As the GAO Report on ``Native American Youth Involvement in Justice 
Systems and Information on Grants to Help Address Juvenile 
Delinquency'' notes accurate figures as to juvenile justice issues in 
Indian Country are hard to obtain. The lack of data regarding Native 
American juvenile incarceration remains lacking and is an obstacle to 
finding solutions. For example, looking only at P.L. 280 states, such 
as California, there is little data available because State systems are 
not required to accurately report tribal contact/incarceration rates 
for juveniles or adults. The question of whether an arrestee is Native 
American and if so, what tribe are not an arrest intake questions. 
Tribes in adult matters can access public records and go through the 
tedious process of ``hand'' reviewing all arrests to discern tribal 
affiliation. As to juveniles, however, the Tribes are left to having 
parents, caretakers (including foster care parents) report to the 
Tribes--only when and if they seek the assistance of the Tribes. The 
Yurok Tribe has resorted to inferential reporting primarily by looking 
at school related figures and/or foster care referrals which are 
compiled on a more reliable basis. While this helps, states should be 
required to collect tribe specific data and then share with the tribe 
to more accurately understand the scope of the problem of Native 
American youth in the justice systems. A critical step in collecting 
data is federal grants to support pilot programs for developing data 
collection systems in Native American juvenile justice. We strongly 
urge this Committee to develop such a pilot program.
II. Juvenile Justice In Yurok Country
    The Yurok Tribal Court does not currently have a delinquency court 
or the staff to manage a juvenile detention or treatment center for 
juvenile youth. Truancy court is handled in Del Norte and Humboldt as 
criminal courts, such that parents can be jailed if their children are 
truant. Juvenile Justice and truancy is an area that both counties are 
interested in creating joint jurisdiction court with the Yurok Tribe.
    Del Norte and Humboldt Counties have identified that Native 
American children are at greatest risk of maltreatment based on the 
disproportionate number of Native American children in foster care in 
both Counties. Though the Native population of both Counties does not 
exceed 9 percent, the rate of Native children in foster care has been 
as high as 40 percent and continued to be high in 2018. The Yurok Tribe 
represents the largest population of children in foster care within 
both Counties. Educational results for foster children show that these 
children are at substantially higher risk than the children who are not 
in this system.
    Yurok tribal members make up about 25 percent of those in local 
jails on any given day, or one out of four inmates. By comparison, 
Yurok make up 6 percent of the Humboldt County total population, and 5 
percent in Del Norte County. This means we are over-represented in the 
local criminal justice system at a rate up to 5 times our share of the 
population. In addition, our counts indicate that Yurok tribal members 
are 11 times more likely to be incarcerated in the local jail than the 
average American. In addition, the response rate (911 calls etc.) in 
rural California is considered the worst in the nation and the Yurok 
Tribe is located in the most impoverished and rural communities within 
these poor rural counties. The Yurok Tribal Court attempts to track 
adult members incarcerated in the local county jails.
    Equally disturbing are the increasing numbers of Yurok adult women 
incarcerated. (Many of these women are parents.) In 2015, women made up 
9.5 percent of those held under the jurisdiction of state or federal 
correctional authorities in the United States, including jails, prisons 
and the supervision population (Bureau of Justice Statistics, National 
Prisoner Statistics, 2005-2015). Yet, women make up approximately 30 
percent or three out of every ten Yurok offenders in the local jails, 
and this figure does not include those on probation, which would only 
increase the female share of tribal offenders. This means tribal women 
are five times more likely to be incarcerated than their non-Native 
peers. The Yurok Wellness Court and Victims Advocate Program have 
partnered to offer girls programing to address the issue of increased 
involvement of young women in truancy behavior, and criminal behavior. 
Advocates seek to assist families who bring these young women to the 
attention of the Court either because they are in foster placement or 
because they are co-referred to the delinquency court. The Youth Court 
will maintain contact with youthful offenders even when they are placed 
out of state through Wellness Court hearings. (After care services are 
minimal.)
    With additional funding and jurisdictional authority, the Tribal 
Court could develop a delinquency court that holds children, parents 
(native and non-native) accountable, and provides critical culturally 
appropriate support programs. Doing so has been a long term goal of the 
Tribe reflected in part by H.R. 3847, the Yurok Lands Act. The bill, if 
made law, would provide critical support for the Yurok Tribe's 
governmental services, including the Tribal Court.
III. Education and the Juvenile Justice System
    Children on the Yurok Reservation attend schools in the State of 
California Klamath-Trinity United School District. There are two 
elementary schools on the Yurok Reservation. Children must attend off-
reservation middle and high schools, as much as 60 miles away from 
their homes. The Tribe has an education department that works closely 
with the schools serving Yurok children. Unfortunately, these schools 
have largely failed Yurok students; most of them dropping out in middle 
school, and a small percentage of those making it to high school, 
actually graduate.
    The high school dropout rate is as high as 80 percent for 
incarcerated juvenile delinquents. To avoid dropping out, several 
juvenile delinquents attend local continuation schools. Yurok students 
make up a disproportionately high percentage of students in 
continuation schools. These schools support high-risk students. While 
Yurok students may graduate, their attendance at these schools means 
that they were most likely involved with the juvenile justice system or 
suspended or expelled from traditional schools. More concerning is the 
undocumented truancy issues due to illness or lack of transportation 
that leads to falling behind in school curriculum, which generally 
leads to behavior problems, truancies, and a downward spiral to 
juvenile delinquency.
    The Tribe strongly believes that early intervention into truancy 
and behavior problems at schools is the best prevention measure for 
juvenile delinquency. The Tribe has several education programs 
including tutoring, school transportation services and many others 
offered to help students. Tribal control of education to provide 
culturally appropriate instruction and activity is key. In addition, 
the Tribe was featured in Anna Deavere Smith's 2016 Broadway production 
``Notes from the Field: Doing Time in Education,'' which was culled 
from more than 200 interviews centering on the realities of the U.S. 
education and justice systems that push poor students from schools to 
prisons. Directed by Leonard Foglia (``Master Class''), ``Notes from 
the Field'' had a run at the American Repertory Theater in Cambridge, 
Mass. prior to the run at Second Stage on Broadway. (An earlier version 
of the show, directed by Leah C. Gardner, played at Berkeley Rep last 
year.)
    This anecdotal representation concerned a young man who had started 
his interfacing with justice system at the age of 8, and was on his 
third strike by the time the Yurok Tribal Court intervened to 
successfully divert him from the criminal justice system. (See also 
``Tribal Justice'' a documentary film by Anne Makepeace produced in 
2017 which highlighted this case and others in an effort to show the 
advantages of locally controlled tribally justice systems.) Anecdotal 
information while illustrative has not allowed us to secure the funding 
needed to make long term improvements. The Tribe is capable, with 
assistance of establishing data collection and remediation programs 
that can and will prove the value of our efforts. We can only do so 
with the assistance of federal funding in educational areas that is 
sufficient to provide systemic interventions.
IV. Opioid Crisis In Yurok Country
    The Yurok Tribe is also a plaintiff in Yurok Tribe v. Purdue Pharma 
LLP et. al. an opioid class action lawsuit. This case details the 
horror that has been inflicted on our families by this latest epidemic. 
Much of this harm has been introduced by opioid manufactures and 
distributors and medical providers and is having a significant impact 
on minors and family units. The details of that harm is set out in the 
complaint. In sum, the Yurok Reservation community has one of the 
highest opioid usage, addiction, and overdose rates in the County. As a 
result, Yurok family units are being torn apart. Children often don't 
have healthy parents or other care providers which results in increased 
likelihood of juvenile delinquent behavior.
V. Increase Education and Juvenile Delinquency Grant Funding for Tribes
    The Tribe is severely limited in it's approaches by piecemeal 
justice initiatives which must interface with the State court system. 
Over 90 percent of our funding is federal based, that means we must 
compete for pilot project and ongoing program funding once we discover 
causation issues in the hopes of establishing corrective/sustainable 
measures to make systemic changes. It is clear from this brief summary 
that our educational issues need to be addressed in a serious 
comprehensive manner if we wish to address juvenile delinquent behavior 
and the resultant long term effects which lead to lifelong involvement 
with the justice system and failed communities.
    Pilot projects which are systemically motivated e.g., educational 
interventions that target suspensions/truancy and parental/caregiver 
interventions can yield long term benefits. There is no shortcut to 
reversing the harms of inadequate educational responses. (There are 
many reasons education is problematic in our community including the 
historical intergenerational trauma of boarding schools.) However, it 
is a better approach to strengthen the family/community/tribal child to 
lessen the number of young people whom are being sentenced to 
facilities for unacceptable behaviors. Re-entry issues can and should 
be treated differently and require additional staff; too often 
aftercare planning is neglected as the treatment is treated as 
incarceration completed with no follow up which leads to the defeat of 
recidivism.
    Systemic pilot projects can be created as community demonstration 
projects designed to reverse trends. Or we can continue to proceed with 
program funding for limited impact programs in the hopes that community 
wide solutions can grow from limited impact programming. The truth is, 
however, that infrastructure is needed. It can be postponed but it can 
not be avoided.
VI. Grant Programs Mentioned in the GAO Report the Yurok Tribe has 
        Applied for and Received or Been Denied
    Yurok has received a number of the grants some of which are 
addressed in the GOA report that we are grateful for, but we have 
significant unmet needs in the area of juvenile justice. Below is a 
list of Grants that the Yurok has applied for and were either awarded 
or not.

    2014

    FEMA Public Safety--funded BIA Public Safety-funded

    2015

    DOJ 2015 Combined Tribal Assistance Solicitation--awarded DOJ O V A 
W A Grants to Encourage Arrest Policies & Enforcement of Pro of 
Protective Orders--awarded HumCo Police Office & Juvenile Probation 
Officer--not awarded HUD Klamath Glen Youth Center--not awarded I WOULD 
MOVE THE PENDING TO THE BOTTOM OF THIS LIST N7 Yurok Youth Recreation 
Program--pending HAF Yurok Youth Cultural & Environmental Stewardship 
Program--pending Youth outside Yurok Youth Cultural & Environmental 
Stewardship Program--pending

    2016

    YT Environ Stewardship Mentoring & Skill Building Program--
Education--not awarded YVFD & YTEP Measure Z Funds--tribal police--not 
awarded Yurok 2016 DOJ-BJA CTAS--tribal court--funded Basketball 
uniforms--funded
    Yurok Healing Families Program--tribal court--funded Grants to 
Exercise Special DV Criminal Jurisdiction--tribal court--funded

    2017

    Youth Center Remodel (Bates Bldg.)--funded Substance Abuse 
Treatment Capacity in Adult Wellness--not funded USDA Youth Center 
Equipment--Not funded 2017 DOJ CTAS--Purpose Area 1,3,5, & 6--tribal 
court--funded Conserv Trails to Traditional Ecological Knowledge--
funded HUD Ke'pel Head Start--Not funded Girls & Young Women's Support 
Group--Wietchpec--funded Archie Thompson Sr. Baseball field-Klamath--
not funded

    2018

    PFC & Tribe Youth Leadership Project- Playground--funded DOJ CTAS 
Yurok CTAS FY 2018 A1, A3, A4, A6, and A7 First nations language 
immersion emersion--Future Teacher Program--not funded DOJ Yurok Opioid 
Affected Youth Initiative--Pending Yurok Youngest Opioid Victims 
Assistance (YOVA) Project--pending

VII. Culturally Appropriate Prevention, Response, And Re-Entry
    In recent years the Tribe's membership/leadership has renewed their 
commitment to reinvigorating our culture. We survived a horrendous/
debilitating invasion that created many hardships heretofore unknown to 
the People, some of those hardships continue or new ones arise. 
However, the People have a core strength and a worldview that focuses 
on our responsibility to and for ourselves, our lands, all the beings 
in our world and our neighbors who also are struggling in a time of 
concern for all. We do not intend to walk away from any of those 
cultural responsibilities. We are stronger every year as we increase 
our cultural participation and return to our responsibilities in dance/
language and stewardship.
Conclusion
    Thank you for the opportunity to testify to the Committee. The GAO 
report is a positive step toward gathering information and data 
regarding Native American youth in involvement in the justice system 
and grants to support such work. There is a great need for more 
accurate data regarding tribe specific juvenile involvement. This 
Committee should consider authorizing a pilot project to develop data 
collection systems to track Native American juvenile justice 
statistics. Further, there should be an increase into educational 
grants to tribes directly as a means to prevent juvenile delinquent 
behavior. Finally, if efforts through education fail, and Native 
American youth find themselves in the justice system, Tribal Courts are 
best suited to provide restorative justice that leads to positive 
lifelong results. Federal funding to support tribal courts in PL-280 
states should be increased as well as tribal court jurisdiction to 
process juvenile claims involving native and non-native parents.

    The Chairman. Thank you, Judge.
    Ms. Rolnick.

 STATEMENT OF ADDIE ROLNICK, PROFESSOR OF LAW, WILLIAM S. BOYD 
              SCHOOL OF LAW, UNIVERSITY OF NEVADA

    Ms. Rolnick. Thank you, Chairman Hoeven, Vice Chairman 
Udall, Senator Cortez Masto, for your attention to this issue, 
for asking me to come here today, for ordering the report, and 
for your work on TLOA II which has some very important 
provisions in it. I want to thank the Pomonkey and Piscataway 
people whose land we are on.
    Judge Abinanti, I learn from your writing, judging and 
advocacy every day. I feel lucky to sit next to you here.
    I want to focus on the report and I will answer questions 
about anything else if you like.
    It is an important report. Two of the major findings in the 
report are that Native youth involvement in the State and 
Federal systems at least has declined and that there are more 
than 100 Federal grants available that could be used to address 
Native youth.
    It might be tempting, based on that information, to 
conclude that things are fine. I caution you, and I think you 
all understand this, against such a conclusion. Here is why.
    Starting with State systems, justice system involvement, 
arrests and beyond that has declined for all youth. The 
findings here are consistent with that. It is unclear exactly 
why this is but I know organizations like the Juvenile 
Detention Alternative Initiative has been involved with States 
trying to bring down the general use of detention and 
incarceration.
    This is good news but there is some evidence it is not 
reaching Native youth and the disparities faced by Native youth 
are persisting. Even though all youth are being detained and 
confined at lower rates, the disparity between Native and White 
youth is getting bigger in some places.
    What is in the report is consistent with what I have found 
in other research, that Native youth continue to face 
significant disparities at several points in the system. It has 
never been worse at the point of arrest. Native youth are not 
generally overrepresented at arrest. They are in a few States, 
but that is not the biggest disparity.
    There are a few offenses for which they tend to be 
arrested, usually alcohol-related offenses more often. 
Otherwise, that is not where they are overrepresented. Where we 
see it is at pre-adjudication detention and post-adjudication 
confinement. They continue to be overrepresented at those 
stages.
    That is particularly worrisome because if they are coming 
in for alcohol-related and low level offenses, you might expect 
they would be more likely to be diverted out of the system and 
they would be more likely to not be detained or confined. In 
fact, the opposite seems to be happening in State systems.
    The report also makes clear that we cannot really see 
anything at the national level. We have to look at the State 
and even the county levels. When we look at States with large 
proportional Native American populations, we see, for the most 
part, the higher the percentage of the population is Native in 
the State, the larger minority population is Native youth, the 
worse they do.
    This suggests to us that Native youth are facing some of 
the same disparities at the same level as we associate with 
African-American youth, but it only shows up when they are the 
biggest minority in the State.
    An interesting exception to this, I do not know what is 
behind it, is that New Mexico has a large portion of Native 
youth and they seem to do better in terms of disparities. At 
all of the stages, they are one of the States where Native 
youth are underrepresented at arrest and confinement.
    One thing I know is that New Mexico is one of only two 
States with the tribal notification law. They have a State law 
requiring State officials to notify tribes when children come 
into the system.
    I think there is a lot to look into about how that law is 
working but that is something I think all States should do. 
Perhaps that is one of the reasons why they are doing a bit 
better with Native youth in their State system.
    I also want to highlight the issue of status offenses which 
appears in the report but is not highlighted. There is some 
evidence that Native Youth are really overrepresented in 
arrest, detention and confinement for status offenses.
    These are offenses that would not be crimes if adults 
committed them, things like running away from home. Native 
girls are even further overrepresented among those children. 
This is a real concern, especially because Federal law says 
that you are not supposed to lock kids up for status offenses, 
ever.
    If Native youth are being locked up pre- and post-
adjudication and placed out of the home at higher rates than 
other youth, something is really wrong. I cannot say more 
because I do not know why it is happening, but it is a real 
issue of concern.
    In the Federal system, some of this data is new to me and 
it is interesting that it looks like the numbers and 
proportions of Native kids in the Federal system have gone 
down. I am not sure why that is and I think there are questions 
to ask about it.
    My greater concern is that we know very little about the 
qualitative experience of Native youth in the Federal system. 
We know very little about where they go and very little about 
what services they have.
    I understand, although it is not listed in here, that the 
facilities where children are sent are contract State and local 
facilities in South Dakota, Texas, Pennsylvania and New Mexico. 
Some of those are secure and some are non-secure. I visited one 
of those. I think there are some big questions about what is 
happening to kids in that system.
    The most important takeaways for me from this report are 
about youth in tribal systems and data collection. With regard 
to youth under tribal jurisdiction, the report underscores that 
we know almost nothing.
    I do know the number of Native youth under BIA tribal 
jurisdiction in detention and incarceration has declined over 
the past 15 to 20 years but during the same period, the number 
of juvenile facilities has nearly doubled. We are or have been 
continuing to build detention facilities for fewer youth.
    For a long time, this was an issue of where Federal funding 
was targeted and that may be changing. I hope it is.
    I think many others have said this. With regard to funding, 
of the 122 programs, only 27 of those are specifically for 
tribes and Native youth. Tribes may be able to apply for the 
others but it is not clear to me that they can apply for direct 
funding. Sometimes they can only apply for pass-through funding 
from the State. They are competing against entities with much 
greater resources.
    This report does not suggest to me there are plenty of 
resources for tribes. I know there are not. I think tribal 
leaders have been clear that they need flexible, independent 
funding for juvenile justice programs, that grants that are 
short term and insufficient to sustain an entire program are 
not going to allow tribes to develop the kinds of programs we 
need.
    Finally, we are not going to ever have the data we need 
until the research and funding is focused on Native youth 
specifically. All the general efforts just miss them. They 
forget to count them. They do not know how to define them. We 
are totally unable to compare the numbers.
    All the reform efforts, if they do not center tribes, 
meaning the tribes have the first say in what happens, the 
ability to direct other governments and are the primary 
beneficiaries of the funding, none of this is going to change.
    Thank you.
    [The prepared statement of Ms. Rolnick follows:]

Prepared Statement of Addie Rolnick, Professor of Law, William S. Boyd 
                  School of Law, University of Nevada
    Good afternoon Chairman Hoeven, Vice Chairman Udall, and Members of 
the Committee. Thank you for inviting me to testify today about Native 
youth in the juvenile justice system. My name is Addie Rolnick. I am a 
law professor at the University of Nevada, Las Vegas. For fifteen 
years, I have been engaged in research, advocacy, and tribal 
institution-building to improve juvenile justice for Native youth. I 
thank the Committee for its attention to such an important and oft-
ignored issue and for requesting the comprehensive GAO report that we 
are here to discuss today.
    I will focus my remarks today on the September 2018 GAO report 
entitled Native American Youth Involvement in Justice Systems and 
Information on Grants to Help Address Juvenile Delinquency. I also 
include here as an attachment my 2015 testimony before this Committee, 
which addresses this issue more broadly and contains detailed 
recommendations for legislative action.
General Recommendations
    In 2015, I recommended greater tribal control over juvenile 
justice, more flexible funding for tribes, more stringent data 
collection and communication requirements for states and federal 
agencies, and more research. I reiterate those recommendations again 
today. After consideration of the GAO Report, I believe the most urgent 
priorities for Congress must be to:

  <bullet> Fund targeted research on Native youth, particularly Native 
        youth under tribal jurisdiction. This research should include 
        mapping tribal systems, gathering data on youth outcomes, and 
        evaluating promising tribal juvenile justice programs.

  <bullet> Require better data collections and more transparency. 
        Specifically, states should be required to collect data on 
        tribal affiliation and should utilize a standard definition (or 
        definitions) of Native American at every stage of data 
        collection. The Bureau of Prisons should be required to 
        disclose to tribes and to the public details about where 
        children under federal jurisdiction are held and what kinds of 
        services they receive.

  <bullet> Change the law to make state and federal actors more 
        accountable to tribal governments by (1) amending the Federal 
        Juvenile Delinquency Act to require a waiver of tribal 
        jurisdiction, and (2) require states to notify a child's tribe 
        when that child enters the state juvenile justice system, a 
        requirement that is essential for all Indian country youth and 
        important for Native youth outside Indian country.

  <bullet> Increase flexible, long-term/renewable grants available to 
        tribes through a direct (not pass-through) funding arrangement. 
        Funding for non-Native organizations desiring to work with 
        Native youth should not decrease the funding available to 
        tribes for the same purpose.

    I would be happy to provide the Committee upon request with 
information on any other aspects of juvenile justice for Native youth. 
My research in this area is also set forth in the following 
publications:

  <bullet> Untangling the Web: Juvenile Justice in Indian Country, 19 
        N.Y.U. J. OF LEG. & PUB. POL. 49 (2016), provides a 
        comprehensive overview of Native youth under tribal, state and 
        federal jurisdiction and sets forth specific policy 
        recommendations.

  <bullet> Locked Up: Fear, Racism, Prison Economics, and the 
        Incarceration of Native Youth, 40 AM. INDIAN CULTURE & RESEARCH 
        J. 55 (2016), investigates some of the factors, particularly 
        federal funding incentives, that may contribute to over-
        incarceration of Native youth under tribal jurisdiction.

  <bullet> Native Youth and Juvenile Injustice in South Dakota, 62 S.D. 
        L. REV. 705 (2017), provides a snapshot of how the overall 
        issues relating to juvenile justice affect tribal youth in 
        South Dakota.

  <bullet> Recentering Tribal Criminal Jurisdiction, 63 UCLA L. REV. 
        1638 (2016), describes why it is important and legally correct 
        for tribes to be the first movers and decisionmakers in the 
        context of criminal and juvenile justice, with state and 
        federal jurisdiction functioning as a fallback.

  <bullet> A Tangled Web of Justice: American Indian and Alaska Native 
        Youth in Federal, State, and Tribal Justice Systems (Campaign 
        for Youth Justice, July 2008) is a policy brief on Native youth 
        in tribal, federal, and state juvenile justice systems.

The GAO Report
    The September GAO report provides an invaluable summary of 
available information on Native youth in the juvenile justice system 
from 2010-2016, including information on how many young people came 
under the jurisdiction of each sovereign, what offenses were committed 
by those young people, and what happened to them once they entered the 
system. I recently reviewed much of the same data for a report on 
Native girls and juvenile justice (the research was undertaken with the 
National Crittenton Foundation and was part of the OJJDP's National 
Girls Initiative), and my commentary draws from that report, which has 
not been released. Having just finished my own summary and analysis of 
available federal data, I know that gathering and analyzing this 
information was not easy. The Committee and the GAO have provided an 
important service to Indian country by making it available in a single 
report. Bringing the data together yields several important insights, 
all of which are consistent with my own review of the data, including:

  <bullet> The vast majority (89 percent) of Native youth under federal 
        jurisdiction are boys. \1\ Fewer than ten girls were arrested 
        and entered the federal system each year during the study 
        period.
---------------------------------------------------------------------------
    \1\ Report, at 45.

  <bullet> The districts of South Dakota and Arizona sent more youth 
        into the federal system than any other districts. \2\
---------------------------------------------------------------------------
    \2\ Report, at 22.

  <bullet> Native youth are significantly over-represented at the 
        arrest stage in the state juvenile justice systems of South 
        Dakota and Alaska and at the post-adjudication confinement 
        stage in North Dakota and South Dakota. South Dakota and Alaska 
        have the highest proportion of Native youth of any state (15 
        percent and 20 percent respectively). Native youth make up nine 
        percent of the youth population in North Dakota. \3\
---------------------------------------------------------------------------
    \3\ Report, at 27 n. 41.

  <bullet> Native youth are under-represented at the arrest stage in 
        the juvenile justice systems of New Mexico and Oklahoma and 
        under-represented at the post-adjudication confinement stage in 
        New Mexico. This is especially significant because Native youth 
        constitute a relatively large share of the youth population in 
        New Mexico (14 percent) and Oklahoma (12 percent). \4\ These 
        two states are also the only states which require state and 
        local juvenile justice officials to notify and attempt to 
        involve an Indian child's tribe. \5\ While this may be 
        unrelated, further inquiry into the reasons for 
        underrepresentation, and the possible role of tribal 
        notification laws, is warranted.
---------------------------------------------------------------------------
    \4\ Id.
    \5\ NM Law and Report, OK Law.

    The Report also suggests that Native involvement in the juvenile 
justice system has declined, and it details a range of federal funding 
opportunities that could potentially be used for Native youth. I 
caution the Committee not to interpret the report as evidence that 
there is no need to address juvenile justice issues for Native youth. I 
explain the specific reasons for this in detail below.
1. An Overall Decline in Arrests Tells Us Little About Whether Native 
        Youth Are Being Treated Appropriately, Effectively, or Fairly
    The report includes some good news: arrests of Native American 
youth by state and federal law enforcement agencies appear to have 
declined somewhat steadily over the sixyear period. This is consistent 
with an overall decline in youth arrests across all racial groups, 
which researchers have noted over the past decade. It is too early and 
the information too incomplete to know the reason for this decline, but 
if it reflects either fewer offenses committed or a turn toward 
addressing young offenders through less punitive measures, that would 
be a positive change. I note, however, that arrests appear to have 
declined consistently during the six-year period except for a brief 
uptick in 2015. The Report does not indicate why that year is an 
outlier, nor can it assure us that the decline will continue. 
Furthermore, as the Native organizations consulted for the Report 
pointed out, it is likely that state officials are under-counting 
Native youth or counting them in an inconsistent manner. \6\
---------------------------------------------------------------------------
    \6\ Report, at 29.
---------------------------------------------------------------------------
    A decline in arrest and referrals means that fewer Native youth are 
coming into the juvenile justice system than in previous years, but I 
caution the Committee not to conclude based on this report that there 
is no problem and no need for solutions and financial investment. In 
2013 and 2014, two federal reports concluded after substantial 
inquiries that the juvenile justice systems serving Native youth were 
``failing'' youth and ``retraumatizing'' them. \7\ This has never been 
a problem of overall numbers. Native youth make up only 1-2 percent of 
the nationwide youth population, \8\ so if relative attention is based 
only on total numbers, Native youth will always be ignored. In fact, 
this invisibility is part of what led to the current problem: the 
federal and state juvenile justice systems were not designed for Native 
youth, and Native youth fare poorly and are sometimes treated unfairly 
as a result. Tribal systems, which are designed for Native youth, are 
unsupported and under-studied. There is little or no communication 
between jurisdictions and state and local officials are free to ignore 
or marginalize Native youth and tribal communities without legal or 
financial repercussion when setting juvenile justice policy.
---------------------------------------------------------------------------
    \7\ Indian Law and Order Commission, A Roadmap for Making Native 
America Safer 149 (2013); Attorney General's Advisory Committee on 
American Indian and Alaska Native Children Exposed to Violence, Ending 
Violence So Children Can Thrive 24, 59 (2014).
    \8\ Report, at 27 n. 41.
---------------------------------------------------------------------------
2. The Report Underscores the Lack of Reliable Data and the Need for 
        Further Study, Especially of Youth in Tribal Systems
    As the Report notes, the existing information is incomplete and its 
dependability is difficult to assess primarily because of small overall 
numbers of Native youth and because of variation in how the category of 
Native American is defined across jurisdictions and agencies. 
Statistics on youth of color depend either on self-identity (what 
racial box a person checks on a form) or ascribed identity (how an 
authority figure decides to categorize a person). Both are especially 
complicated for Native youth. The U.S. Census counts American Indian 
and Alaska Native youth in two ways. The first category, ``AI/AN-only'' 
includes only those people who self-identify as American Indian or 
Alaska Native. \9\ The second category, ``AI/AN-plus'' includes AI/AN-
only people plus those who self-identify as American Indian or Alaska 
Native along with any other racial categories. \10\ Including multi-
racial people doubles the number of people in the AI/AN category 
nationwide (from 1 percent to 2 percent), \11\ so accurate numbers 
require understanding which group forms the best baseline for the issue 
in question. State and local data may not distinguish between single-
race and multi-race identifiers, making it difficult to tell who is 
being counted. Moreover, self-identity measures may also include many 
youth who identify as Native, but do not legally count as American 
Indian and may not be affiliated with any tribe, effectively 
overstating the number of youth who would be affected by a 
jurisdiction-based reform and potentially skewing statistics about the 
experiences of Native girls. There is evidence that, in some contexts, 
people who are not tribally affiliated and who do not publicly identify 
as Native American will so identify on official forms, especially when 
given a multi-racial option. \12\
---------------------------------------------------------------------------
    \9\ Tina Norris et al., The American Indian and Alaska Native 
Population: 2010, 2010 Census Briefs (United States Census Bureau, 
2012): 3-5.
    \10\ Ibid.
    \11\ Ibid.
    \12\ D'Vera Cohn, ``American Indian and White, but not 
`Multiracial,''' FactTank: News in the Numbers, Pew Research Center, 
June 11, 2015, http://www.pewresearch.org/fact-tank/2015/06/11/
american-indian-andwhite-but-not-multiracial/.
---------------------------------------------------------------------------
    The legal Indian category, which includes youth affected by special 
tribal jurisdictional rules, does not depend on self-identity; it 
depends instead on tribal affiliation. The way the Native category is 
defined, including whether it relies on self-identity, official 
ascription, or legal Indian status, varies across jurisdiction, agency, 
and decision point. It is important to understand that we may be 
counting different young people each time we repeat a statistic about 
``Native youth.'' \13\
---------------------------------------------------------------------------
    \13\ The authors thank Neelum Arya for insight on the issue of how 
Native youth are counted in juvenile justice statistics.
---------------------------------------------------------------------------
    The Report also contains very little information on Native youth 
under tribal jurisdiction, a population I estimate to be at least \1/3\ 
of all system-involved Native youth. Many of the national datasets used 
to measure risk factors, system involvement, and outcomes among youth 
in the delinquency system do not gather data from tribal law 
enforcements agencies, tribal courts, or tribal facilities. If they do 
include tribal agencies, they may only receive data from a handful of 
tribes. The Bureau of Justice Statistics plans to conduct a census of 
tribal law enforcement agencies and recently finished collecting data 
for an update to its survey of tribal court systems, which was last 
conducted in 2002. Each will collect data from approximately 300 tribal 
agencies. \14\ Without tribal data, it is also difficult to know how 
well tribal systems are meeting young people's needs and which reforms 
may be needed there.
---------------------------------------------------------------------------
    \14\ Tribal Crime Data Collection Activities, 2017 (United States 
Department of Justice Bureau of Justice Statistics, 2017).
---------------------------------------------------------------------------
    There is currently no single source of information on youth who are 
involved in tribal juvenile justice systems but are not held in secure 
confinement, and there is scant documentation of the types of non-
detention options available in tribal justice systems. In addition to a 
national picture of these young people, there is a need for in-depth 
case studies of individual tribal juvenile justice systems. Such 
studies will yield more detailed information about Native youth under 
tribal jurisdiction, identify variation among tribes and regions, and 
help identify the programs and practices that work for Native youth, 
including Native girls.
3. The Report Suggests that Racial Disparities in Detention and 
        Confinement Persist in State Systems
    According to the Report, Native youth are over-represented at the 
arrest stage in the justice systems of seven states. \15\ This over-
representation was at least five percentage points higher in four 
states and at least 15 percentage points higher in two states. The 
states with the worst disparities (Alaska and South Dakota) are also 
the states in which Native youth make up the largest share of the 
population compared to other states. \16\ Three of the states in which 
Native youth are over-represented (Alaska, Minnesota and Oregon) are 
Public law 280 states, which means that those states have jurisdiction 
over Native youth within and outside of Indian country.
---------------------------------------------------------------------------
    \15\ These states are: Alaska, Minnesota, Montana, North Dakota, 
Oregon, and Wyoming. Report, at 33.
    \16\ Report, at 27 n. 1.
---------------------------------------------------------------------------
    This over-representation is significant because, at the national 
level, available data over the last 10-15 years has shown that Native 
youth are arrested at largely the same rates as other youth. They are, 
however, over-represented in arrests for certain offenses, generally 
low-level and alcohol and drug related offenses. The report confirms 
this as well: Native youth nationally are over-represented among 
arrests for alcohol offenses, and the top four offenses for which 
Native youth were arrested were larceny/theft, alcohol-related 
offenses, assault, and status offenses.
    Greater disparities emerge at the pre-adjudication detention and 
post-adjudication confinement stages. Given the offenses for which 
Native youth are most likely to be arrested, one might expect that they 
would be under-represented among youth who are detained, placed out of 
home, and confined. This is because juvenile justice expert agree that 
detention and confinement should be reserved for violent and serious 
offenders. Yet, the Report indicates that Native youth are over-
represented among youth in post-adjudication confinement \17\ in 16 
states. \18\ This over-representation was at least 5 percentage points 
higher in six states and at least 15 percentage points higher in North 
Dakota and South Dakota. The Report does not focus on pre-adjudication 
detention, but my own research has shown that, despite the overall 
decline detention for all youth, the Native-white disparity in 
detention has in some cases worsened.
---------------------------------------------------------------------------
    \17\ Confinement data used in the report is based on the Census of 
Juveniles in Residential Placement, but the Report authors excluded 
youth who were being held pending trial or adjudication. Report, at 27 
n.40.
    \18\ These states are: Washington, Oregon, Utah, Nebraska, 
Oklahoma, Iowa, Wisconsin, Mississippi, New Hampshire, Maine, Montana, 
Wyoming, North Dakota, South Dakota, Minnesota, and Alaska. Report, at 
35.
---------------------------------------------------------------------------
    Of particular concern is the relationship between status offenses 
and out of home placement. The Juvenile Justice and the Tribal Law and 
Policy Institute issued a report in 2014 finding that Native youth are 
more likely to be detained and placed out of home for status offenses 
than other youth. \19\ We found that this disparity was apparent at 
both the detention and confinement stages, and that it was even greater 
for Native girls. This should be an area of serious concern, as federal 
law prohibits locking up youth for status offenses and experts 
recommend against out-of-home placement.
---------------------------------------------------------------------------
    \19\ Coalition for Juvenile Justice & Tribal Law & Policy 
Institute, American Indian/Alaska Native Youth & Status Offense 
Disparities: A Call for Tribal Initiatives, Coordination & Federal 
Funding (2015).
---------------------------------------------------------------------------
    Finally, as the Report notes, Native involvement in state juvenile 
justice systems was greatest in states with a higher-than-average 
Native youth population. \20\ This suggests that, where Native youth 
are visible, they not treated fairly by the justice system. Indeed, my 
research suggests that while overall rates of youth involvement in the 
justice system may be declining, the disparities faced by Native youth 
are in many cases worsening.
---------------------------------------------------------------------------
    \20\ Report, at 21.
---------------------------------------------------------------------------
4. The Report Reveals a Substantial Reduction in the Number of Native 
        Youth in the Federal System, but Does Not Provide Details About 
        the Kinds of Placements, Programs, and Services Available to 
        Youth Under Federal Jurisdiction
    The Report's findings on Native youth in state and local systems 
are generally consistent with my own findings. The data included for 
the federal system, however, is new. Because the Bureau of Prisons and 
federal law enforcement agencies do not make data publicly available, 
the latest publicly accessible data for youth in the federal system was 
from prior to 2011. \21\
---------------------------------------------------------------------------
    \21\ William Adams, et al., Tribal Youth in the federal; System, 
Final Report (Revised) (2011).
---------------------------------------------------------------------------
    The data presented show a striking decline in the number and share 
of Native youth under federal jurisdiction. For example, the number of 
Native youth arrested by federal officials in 2016 is one third of what 
it was in 2010. \22\ Native youth also appear to make up a much smaller 
share of youth in the federal system at every stage than they did in 
previous years. Table 5 shows the percent of youth in the federal 
system who were Native American at the custody/detention, adjudication, 
and post-adjudication confinement stages for 2010-2016, and at no time 
did Native youth make up more than 30 percent of all youth in the 
federal system. By contrast, Native youth accounted for about 40 
percent of youth arrested by federal officials between 1999 and 2008. 
\23\ While it is possible that the differences between the 2011 report 
and the 2016 report are due to methodological or dataset variation, or 
to a larger number of non-Native youth entering the federal system, the 
Report suggests that it is due instead to an overall decline in Native 
youth under federal jurisdiction. I am cautiously optimistic about 
this, but I encourage the Committee to inquire further with the 
responsible agencies and affected tribes to determine the reasons for 
such a change.
---------------------------------------------------------------------------
    \22\ Report, at 21.
    \23\ Adams, at 39.
---------------------------------------------------------------------------
    The Report does not include information about where young people 
under federal jurisdiction are held and what kinds of programs and 
services are available to them. The Bureau of Prisons does not directly 
operate any juvenile facilities, so youth are sent to one of the state, 
local, or private facilities with which BOP contracts. The Report 
indicates that BOP oversees eight such facilities, but does not name 
them or describe their location or characteristics. \24\ We still know 
very little about the qualitative experience of Native youth under 
federal jurisdiction. This is frustrating because federal agencies have 
this information, but do not make it widely available.
---------------------------------------------------------------------------
    \24\ Report, at 45 n. 55.
---------------------------------------------------------------------------
5. The Review of Available Grants Illustrates the Continuing Need for 
        Flexible, Consistent Funding for Tribal Juvenile Justice 
        Systems
    To adequately address juvenile delinquency in a manner than reflect 
tribal community priorities, cultural practices, and geographic 
circumstances, tribes must have access to flexible, stable funding for 
all aspects of tribal juvenile justice systems, particularly treatment 
and alternatives to detention. The Report details more than 100 grant 
programs that could be used for Native youth. However, of the grant 
programs described in the report, very few are targeted to Native youth 
and/or available to tribes as direct applicants. Many of them are 
short-term grants and provide only a small amount of funding. These are 
not the kind of grants that allow tribes to create and sustain 
innovative programming. In addition, many of the listed programs have 
not been funded since 2015. The list of potential programs is 
informative, but it should not be viewed as evidence that tribes are 
receiving the resources they need; they are not.
         The article Native Youth & Juvenile Injustice in South Dakota 
        by Addie C. Rolnick has been retained in the Committee files 
        and can be found at http://scholars.law.unlv.edu/facpub.

    The Chairman. Thank you, Ms. Rolnick.
    We will now have five minutes rounds of questioning.
    This is a question for all of you. The GAO report 
highlighted risk factors and challenges Native youth face. It 
also discusses the difficulties of examining this particular 
problem in Indian County due to the lack of data and 
inconsistent tracking of the Native status of youth in the 
juvenile system.
    For this reason, Senators McCain, Barrasso, Daines, 
Murkowski and I co-sponsored the Tribal Law and Order 
Reauthorization and Amendment Act of 2017, S. 1953. How do you 
think this bill will help address the issues raised in the GAO 
report?
    We will start with you, Dr. Goodwin.
    Dr. Goodwin. Thank you, Senator.
    As everyone suggested, and as we found in our report, some 
of our major challenges with pulling together the report had to 
do with data and what kind of data was out there and available.
    We reached out to DOJ officials, also talked to Native 
American organizations and tribal communities to give us a 
sense for why we were seeing what we were seeing. You are 
correct. One of the things the tribal organizations said to us 
was they were concerned that whatever we were seeing, the 
numbers might be underreported because when a youth comes into 
contact with a law enforcement entity, they might not be 
collecting their Native American status. We are very clear 
about that in our report, that there are concerns that what we 
found in the data might be underreported.
    The legislation you are putting forward could be helpful, 
but we also have to be mindful that we are talking about youth. 
Some of the information and data around the youth cannot be 
made publicly available.
    When we were doing this report, we had numerous 
conversations with people at DOJ. It took us a while to get the 
data we got because we had to assure them we would maintain the 
confidentiality of that data.
    As we move forward, we really do need to have a discussion 
about how can we pull together the data in such a way that we 
can get some of these questions answered and alleviate some of 
our concerns while also maintaining the confidentiality of the 
juvenile data we have.
    The Chairman. But they need to track that data and provide 
it, right?
    Dr. Goodwin. I would say that would have been really good 
for our report if we had at least had a tracking. Another issue 
that came up was we were not able to track the youth across the 
phases of the process, the number of different data systems or 
data sources that we used in order to at least see where the 
youth are at certain points in time. The way the data is set up 
right now, you cannot track across.
    We might not see you at arrest, adjudication and 
confinement if we are only looking at one system. That is an 
issue. Your proposed legislation would start to alleviate some 
of those concerns.
    The Chairman. Ms. Harp.
    Ms. Harp. I think when we talk about the data and 
limitations with it, there certainly are problems. That is 
clear on its face. Part of it, though, is these collections of 
data are voluntary; there is no requirement that the tribe 
collect and report them.
    We have the complexity back and forth of the jurisdictional 
issues. That is a challenge for us. There are infrastructure 
problems, as we have discussed, data infrastructure problems.
    I think certainly the department would be willing to sit 
down, look at the Act and figure out how it might work, make 
sure we honor the sovereignty of the tribes but at the same 
time, balance unintended consequences or against the advances 
we could make with a good data collection system.
    The Chairman. Deputy Assistant Secretary Tahsuda.
    Mr. Tahsuda. Thank you, Mr. Chairman.
    The question of the lack of data is a little unique for us, 
I guess I would say, because we deal specifically with Indian 
kids, primarily on the reservation or in Indian communities. If 
it is data about whether they are Indian or not, we have pretty 
good data on that because that is mostly everyone we deal with.
    What I think we actually do a pretty good job on is the 
data we think is important for us in dealing with the 
juveniles, particularly focused on recidivism. When they come 
into our system, when they come through the tribal courts, we 
track them to the tribe. When they are placed in the facility, 
we try to keep that child connected to their tribal community 
as well as their family.
    The success that we have in reducing recidivism is because 
of that track, we are able to not only connect them culturally, 
but also to provide education. When they leave the facility, 
they are connected with an education institution they can 
continue to follow through with.
    However, the challenge for the entire system is that we do 
not actually have that many juveniles in our system. The vast 
majority of Indian juveniles are in either State, local or 
Federal facilities. We do not have the connection with them 
that would be helpful, I think.
    I find it really interesting and instructive with New 
Mexico having their system and, at least anecdotally, maybe 
that is affecting positively their ability to reduce the number 
of juveniles in the system.
    Maybe if we had better communication with other systems, 
like the State or Federal systems, with these children, we 
could help out in making sure they are connected while they are 
in the facility and renew their family and community 
connections once they leave. I think that would be a big 
positive impact for them.
    The Chairman. Judge?
    Ms. Abinanti. That is true except in Public Law 280 States 
where our children are incarcerated by the State and the 
figures do not go up. As you are aware, California has the 
largest Native American population and is a 280 State.
    In addition, I think as we start to gather that data, you 
will see more and more youth incarcerated in adult prisons in 
the age group of 18 to 23 because there is a common look away 
from the kids until they are old enough to lock them up because 
we do not have enough for juvenile detention. That is across 
the Country.
    You are going to see an upswing in that age group of people 
being incarcerated. We are seeing it. I imagine that is going 
to spread out. Where that goes, I do not know but it is 
happening.
    The Chairman. Ms. Rolnick?
    Ms. Rolnick. Thank you.
    I really appreciate the inclusion of any juvenile 
provisions at all in the Tribal Law and Order Reauthorization 
and Amendment Act. It is hard to get attention to juvenile 
issues, so I appreciate the Committee's attention there.
    There are two provisions I think are particularly helpful. 
I also have a suggestion for additional pieces.
    One is the inclusion of agencies that work with Native 
youth on the Coordinating Council for Juvenile Delinquency 
Prevention. That council having the inclusion of officials from 
Federal agencies that work with tribes is going to be a lot 
more helpful, I think, in including Native youth.
    I do not know why I did not know this before but I just 
recently learned that the Fact JJ, the council in juvenile 
justice, is the organization of State advisory groups that 
advises on juvenile justice and you have to be on a State 
advisory group in order to be on that council. That also should 
include tribal leaders.
    There is no way that tribal voices are going to be heard at 
the juvenile justice level if they cannot be in the room with 
the State advisory group leaders, being on that council.
    The other provision I think is really important is the 
amendment to the Federal Juvenile Delinquency Act that would 
basically require Federal prosecutors to get a waiver of tribal 
jurisdiction, as they have to do with States, before they 
proceed against Native youth.
    It does not mean you cannot take Native youth to Federal 
court, but it requires some coordination with the tribe so it 
allows the tribe to direct how the resources are being 
distributed. It avoids a double prosecution in which the tribe 
and the Federal Government go after the same kid maybe with 
different purposes.
    I think it is equally important or maybe more important 
given the numbers the States have to do that too. The States 
need to minimally collect the data about whether and what tribe 
a child is from. They should also be required to notify the 
tribe. As Judge Abinanti said, that is essential for tribes in 
PL-280 States.
    All of their children, even the children on the 
reservation, are in the State system. If the State does not 
have to talk to them at all about what is going on with those 
children, then the tribes will not be able to do anything.
    The Chairman. Thank you.
    Vice Chairman Udall.
    Senator Udall. Thank you, Mr. Chairman.
    Professor Rolnick, when we spoke at this Committee's last 
juvenile justice hearing, we discussed the Santa Clara Running 
Club, a running program that involves people of all ages at 
Santa Clara Pueblo in New Mexico. The program promotes health, 
community, culture and, as you pointed out, serves as sort of a 
preventive juvenile justice initiative for the Pueblo.
    Can you talk more about the importance of protective and 
preventive programs such as this running club? Can you give us 
examples of other preventive programs that exist throughout 
Indian Country?
    Ms. Rolnick. Thank you.
    I wish I could give you examples. What I have found is that 
at this point, until I take the time and raise the money to 
travel out regularly to all of the different reservations, I am 
not going to be able to give anymore examples. There is no data 
I can sit there and collect on these programs so it is what I 
go out and see.
    However, I really appreciate your words earlier about the 
importance of preventive programs but you said programs that 
are outside the rubric of juvenile justice. I think that is a 
really important point.
    The more that I visit tribes, I think there are some youth 
committing violent crimes, but I think I have yet to see any on 
a visit. I have been to jails and the kids there are usually 
there for drinking. There was no one to pick them up and no 
where to put them, so they are still in a jail.
    It seems like if these kids are not getting in a lot of 
trouble, I think a lot of tribes, I do not want to speak for 
the tribes, but they could have an entire system that was not 
even a juvenile justice system. It would be all of these other 
programs.
    There would be running clubs and it would be housing. If 
they could handle the problems they were having with their kids 
not just any kind of incarceration, but maybe any kind of 
juvenile justice system at all. We are not seeing kids who are 
getting in a lot of trouble. We are seeing kids who could be 
helped in other ways.
    It is unfortunate that the only way we know how to deal 
with children is once they start getting in trouble, pulling 
them in under a court. I think it is really important that you 
highlighted that program and noted that those kinds of programs 
are probably more important.
    Senator Udall. One of the points I was making here is by 
using cultural knowledge and traditional practices, many Native 
youth have been able to successfully reintegrate back into 
tribal communities and heal their trauma and what they have 
been through.
    Have you seen that, Judge, in your experience?
    Ms. Abinanti. I think that is true. I think now there is an 
increasing movement. There is a new book out by Catia Riesling 
Balding who is from the north in California talking about the 
return of coming of age ceremonies for girls. These are not for 
the faint at heart, let me just say. It involves a lot of rigor 
to prepare for and have these ceremonies.
    I know other communities are also practicing them more. As 
time goes on, I think they will contribute to the benefit. We 
are looking at those kinds of programs. We are looking at 
working with the schools to release our children to go to 
dance, to participate in dance, making sure the dance leaders 
use part of the daytime to ensure the children are doing their 
homework. That becomes part of their responsibility, the dance 
leaders, to do that. That has had a very positive effect.
    It increases, as has the language classes, not to mention 
that I now have a seventh grader tutoring me in Yurok which is 
really good. She is sort of mean, other than that. She has 
spent a little too much time around her grandmother, I think. I 
am not quite sure but she does make me toe the line.
    Senator Udall. Thank you.
    Several of the witnesses, Judge, I think you were included, 
mentioned our program in New Mexico with the tribal 
notification system which requires the State to notify the 
tribe when one of its members enters the juvenile justice 
system beyond the tribal system.
    Ms. Harp, has the department considered requiring States to 
report tribal-specific data when dealing with tribal youth in 
State courts as part of the requirements for any justice-
related grants that the State may receive from the Department 
of Justice?
    Ms. Harp. Not that I am aware of. I am not certain what our 
authority would be to make that happen. I think the tribal 
liaison certainly in the EOUSA's offices, the US Attorney's 
offices, are great at building relationships with tribes and 
communicating with them.
    I think our States, those who pass through significant 
amounts of Title II money, do a great job of communicating with 
their States but I do not know they have any systems in place 
to notify every single time a child comes into the system.
    It is certainly something to look at because there is that 
question. New Mexico is doing well. I think Oklahoma is also 
doing well with keeping their kids out of pre-trial detention, 
their Native youth out of pre-trial detention. I think it bears 
looking at.
    Senator Udall. As Ms. Goodwin mentioned, the data shows we 
are moving in the right direction but unless you have the full 
data picture and see what is going on within the tribe and off-
reservation, only then do you really know what is happening.
    With that, Mr. Chairman, I yield back.
    The Chairman. Senator Heitkamp.
    Senator Heitkamp. Thank you, Mr. Chairman.
    The level of frustration we all have about the lack of 
statistics and data is overwhelming. We do not know how many 
missing and murdered indigenous women there are. GAO was asked 
to report on human trafficking in Native American Country. They 
came back and told us they cannot tell us. Now, you are telling 
us you cannot tell us how many kids are in detention and are 
not getting services in detention.
    This is not a new problem. When I was attorney general in 
the 1990s, I used to track Native American children 
victimization. Ms. Harp, can you tell me what the relative 
comparative rates of victimization of children because of abuse 
and neglect is for Native American kids versus a White kid in 
America?
    Ms. Harp. No, Senator, I cannot right now but I will get 
that information for you.
    Senator Heitkamp. You used to track it. I can tell you 
this. At the time when I was looking at statistics, it would be 
two to three times higher. The most abused and neglected kids 
in America are Native American kids and we expect different 
outcomes.
    I am not here so much to derail the work that is being 
done. I understand the challenges but I am always amazed by the 
lack of urgency. Deputy Secretary, you talked about there are 
16 school resource officers. How many tribal schools do you 
have?
    Mr. Tahsuda. We have I believe 183 schools in our system. 
We directly operate I believe 53 of those.
    Senator Heitkamp. You have 16 tribal resource officers?
    Mr. Tahsuda. Yes.
    Senator Heitkamp. Can you tell me how far away your schools 
would be from any first responder in any given day if there was 
a school shooting at a tribal school?
    Mr. Tahsuda. That would very much depend on the school's 
location and the State.
    Senator Heitkamp. I can tell you in North Dakota, it is a 
ways away.
    Mr. Tahsuda. Yes.
    Senator Heitkamp. We have been fighting to get two resource 
officers and an MOU signed. It just becomes virtually 
impossible many times to get services.
    The point I want to make is that there needs to be a much 
more aggressive attitude about trying to figure out what is 
going on with Native kids. I hope the Commission will spur some 
of that discussion. I hope we will be able to figure out what 
works and what would not work.
    Incarcerating kids, if they are Native, for drinking and 
not if they are White does not seem very fair. Was that what 
you are telling me? If you look at statistics in State and 
local systems, is that probably what you would see?
    Ms. Rolnick. The only thing out there to qualify that is I 
am sure there is another reason on paper besides that they are 
drinking that they are incarcerated but, yes, I think that is 
what is happening.
    Senator Heitkamp. Judge, if you could offer some words of 
advice, these are the three things we ought to be focused on in 
order to advance the opportunities for children in Native 
American Country, what three things would you tell us?
    Ms. Abinanti. To the last point, we refer to those crimes 
as felony stupid which get you locked up.
    To the three points, I would say youth wellness courts and 
truancy courts. When I say courts, I mean in the sense that I 
operate them, not in the sense of, in California, if you are 
truant, you can lock up the child's parents, a very useful 
technique, I am sure.
    The third thing would be to offer the programming that 
allows children to go to dance and to have running clubs. We 
were trying to raise money last week to figure out how we could 
start a ten-person team to prepare for the Indigenous Olympics 
in 2020. We could not figure out how to do it, even though two 
of my staff said, we will coach.
    Those kinds of things are the three I would say.
    Senator Heitkamp. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Cortez Masto.
    Senator Cortez Masto. Thank you. Thank you all for being 
here.
    I just have to echo Senator Heitkamp's words. I see the 
frustration as well and I felt it when I was attorney general 
of the State of Nevada. That is one of the reasons I wanted to 
be here.
    Professor Rolnick, we had a conversation earlier. I think 
all of what we are trying to achieve here starts with accurate 
collection of the data. The challenge we have is collecting 
that data.
    Can you talk a little bit about the challenges you have in 
collecting data and getting accurate information, if you don't 
mind?
    Ms. Rolnick. Yes. Some of this is in the report but I will 
just say I have encountered it as well.
    Across the Country, Native youth and Native people are 1 to 
2 percent of the population. They are 1 percent if you just 
count people who identify as Native only and 2 percent if you 
count people who identify as Native plus another race. The base 
population you are dealing with doubles depending on kind of 
how you count it.
    The definition sometimes is based on self identity, what 
does the kid say? Sometimes it is going to be based on someone 
who picks them up and puts them in whatever category it is. 
Sometimes it might be based on actually trying to find out 
whether they qualify as an Indian kid under the Federal law. At 
every stage, you are counting different sets of youth.
    One of the things I want to do is compare disparity rates 
but at the level of the Federal data that is collected, we do 
get some information from tribes when it comes to arrest data 
and none when it comes to confinement data. The confinement 
data comes from a database where no tribes report.
    We are using entirely different populations. Since the 
overall population is so small, I try to rely on what is fair 
but statistically, probably none of this means anything because 
we are comparing apples to oranges at every stage.
    States are not even doing what I think is the basic thing 
which is they do not have a line to write tribal affiliation, 
even if they did nothing more than that. They are not doing 
that as far as I know. Only two of them are.
    Statistically there is such a small population that 
nationally they are often sort of left out as insignificant. If 
you look at national level data and larger efforts, very few 
efforts even count what is going on with Native kids because 
they are such a small population.
    It is usually more helpful to look at States or counties 
with a lot of Native youth because then they will register 
higher. That is where you see the disparities. That is why I am 
concerned overall but they are sort of statistically and, kind 
of on a policy level, invisible. Because of that, the 
collectors of data haven't bothered to even standardize the 
definitions.
    It is almost impossible to collect this data.
    The one thing I want to say is I feel funny. I am an 
academic and I am supposed to collect data, especially around 
criminal juvenile justice. It is what I am supposed to show, 
but I am skeptical of it, in a way, and also know, because I 
have worked with tribes for a long time, that what is showing 
up in the data is the same thing tribes have been saying for a 
long time.
    We did not listen to tribal leaders when they said this. We 
keep trying to collect data to prove it and the data is no 
good. Then we say we cannot prove it. We could have been 
already making some of these changes.
    We should collect more and better data but we should also 
listen to what the tribes are saying, ask them what they need 
and do that and not wait for the data to be collected.
    Senator Cortez Masto. Thank you. That is why I bring this 
up because I was not here in 2015. I am assuming this is a 
conversation you had in 2015 when you were all here.
    Collecting the data, and also understanding where to go to 
collect it, really the challenge we have is you have the 
Federal system; the States, depending on the arrangements made 
or whether the Public Law 280 is applicable; and then you have 
tribes, right, the tribal jurisdiction?
    It does not seem like it is rocket science that we know 
they are there, bridging the gap and figuring out how we get 
grant funding or funding pilot projects to start collecting the 
data and then connecting all of that.
    Judge Abinanti, thank you so much for being here. You are 
in one of those States, California, a PL 280 State. I suspect 
your challenge is because State law has primary jurisdiction 
over any type of criminal activity. It is the district 
attorneys that are going to be prosecuting, is that right?
    Ms. Abinanti. Correct.
    Senator Cortez Masto. Each district attorney is not going 
to define and/or collect the information the same across the 
State of California, is that correct?
    Ms. Abinanti. Also correct.
    Senator Cortez Masto. You have a lot of counties there and 
many district attorneys. I see the problem and I think we all 
do but I think it is time now to stop talking about it and put 
systems in place where we can start accurately collecting this 
data.
    For purposes of BIA as well as the Office of Juvenile 
Justice and Delinquency, you know the issues. How do we address 
this? How do we make this change? How do we connect it? How do 
we bring everyone together to start collecting this 
information? What should we be doing at the Federal level? Let 
me start with you, Mr. Tahsuda.
    Mr. Tahsuda. Thank you, Senator.
    Again, when you talk about outside of our system, probably 
the biggest help for us and more than us, for the tribes, would 
be some type of notification, that communication about where 
their kids are and what system they are in. I assume that would 
be extremely helpful to them. If the tribes have the 
information and we have the information, we can connect the 
dots.
    There is still the question of adequate services that could 
be provided to a child. We do what we can with the resources we 
have. We provide an education for them and some counseling 
services. We are working to increase partnerships with HHS and 
the Department of Education about getting more of those 
programs for the kids we have.
    Again, that does not help the kids who are in the State 
system. At the very least, I guess if we could help make the 
connection with the tribe and the community, they can also at 
least assist in trying to keep the connection with the child, 
with the community, with the culture, and so forth.
    I think almost anyone would agree you would have a better 
outcome for the child if they can stay connected to their 
community and their culture.
    Senator Cortez Masto. I think we all agree with that.
    I know I am running out of time. Judge, did you have 
another comment you wanted to make?
    Ms. Abinanti. I was going to say one way to do it is to 
incentivize the counting so that part of what is happening is 
that the children are in a system and not getting specialized 
help. If you gave that system an incentive to count them, that 
might help, if I have 40 percent of the foster kids in one of 
the counties where a reservation is, are Native and were 9 
percent of the population.
    Senator Cortez Masto. Right. Thank you.
    I know I went over my time. Thank you so much for the 
conversation today.
    The Chairman. Senator Smith.

                 STATEMENT OF HON. TINA SMITH, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Smith. Thank you very much, Chairman Hoeven.
    I would like to keep on what my colleague was just asking 
about. This is open to all of you. What are some other ways we 
could provide incentives like Judge Abinanti discussed, other 
ways we could provide better incentives for data collection or 
other ways we could make it easier to gather the data?
    Ms. Rolnick. This is not exactly an incentive but I think 
there was a comment earlier about whether or not the Federal 
agencies have the authority to make States gather the data. The 
way to fix that is not an incentive but a hammer.
    The Juvenile Justice and Delinquency Prevention Act is 
where States get a lot of their money. All but one State gets 
money for juvenile justice from that. It is possible to add 
requirements, requirements of notification, or requirements of 
data collection.
    The States have resisted that and it has been difficult to 
get tribal provisions in that bill but that is definitely 
possible to do. There are a lot of other things in that bill 
that funding is contingent on. There is no reason that tribal 
data collection and notification cannot be another one.
    Senator Smith. Thank you.
    Does anyone else have a comment on that? Ms. Harp?
    Ms. Harp. Actually, JJDPA, the tribes are not covered by 
the JJDPA. They are not required to meet the core requirements 
of JJDPA in order to get any of the Title II pass through that 
States provide.
    The law says they are only required to attempt to comply 
with core requirements. That is the extent of it. States do not 
go out into Indian facilities and do any monitoring because 
again, the States do not have the authority to do that because 
the tribes do not have to comply. They only have to try to do 
that.
    As you are probably aware, most of the States only get a 
matter of hundreds of dollars of the pass through because it is 
based on the percentage of Native you in the State. That is 
part of the problem.
    The funding for Title II continues to dwindle. I do not 
know there is going to be a lot of incentive there unless we 
experience some increase in funding for Title II.
    I think the idea of using a hammer, when we talk about 
hammers, there is always a balancing point when it comes to 
using them because JJDPA has so many requirements, the SAG 
membership, the 28 certifications, the difficulty of becoming 
eligible in the first place.
    Senator Smith. Sometimes we make data collection so 
difficult that it makes it difficult especially for small 
organizations. Is that a problem or not?
    Ms. Harp. It absolutely is, specifically with Title II. We 
are trying to ease some of that but the idea of the hammer, I 
think we can certainly talk about it and find ways to do it or 
find ways to consider it, but a hammer without funding with 
JJDPA is really risky because if the States back out of it 
altogether because it is just not worth it, they don't get very 
much money. The dollar amount is $400,000.
    Ms. Smith. I just read this on another issue. I get what 
you are saying.
    Did you want to add something?
    Ms. Rolnick. Just to clarify, tribes are not eligible. I 
think they would like to be eligible for direct funding and not 
pass-through funding. They are not covered but they also are 
not eligible. They have been left out for the most part of that 
law and not because they wanted to be.
    What I am thinking is just add a line, add a blank for 
tribal affiliation, ask that question. That I don't think is an 
onerous data question requirement. If tribes are under States 
when it comes to getting that Federal money, then the States 
are supposedly responsible for those kids, I am not actually 
talking about reporting on kids who are in tribal or Federal 
facilities. These are kids in the State system, so the question 
is are you keeping separate data for the kids coming in under 
your jurisdiction to figure out whether they are tribal kids or 
not?
    It does not seem like it is honest. It seems it is 
consistent with the fact that tribes are not eligible to get 
that money directly and the State is therefore responsible for 
the tribal kids in the system. I just wanted to clarify. I 
think that is a difficult requirement.
    Senator Smith. Thank you very much.
    I am about out of time but Judge Abinanti, I am very 
interested in what you were talking about with Senator Udall 
and also with Senator Heitkamp about the basic concept of 
getting upstream of the juvenile justice system or making the 
juvenile justice system work better and the shortcomings. When 
kids have so many challenges, they get into the juvenile 
justice system and then they are in a terrible bind.
    I was really interested in what was included in your 
testimony around how your truancy courts work. I would love it 
if you could just talk a bit more about that.
    Ms. Abinanti. The truancy court I referenced is basically 
in a dream state at this point. I have talked to both DAs in 
Humboldt and Belmont Counties and they really support the 
concept of doing a joint court because of public schools.
    We would sit, as we do in dependency now, as joint judges 
in those courts because I believe that we need wrap around 
services. We need to help the parents get to their place where 
they feel comfortable to advocate for their children instead of 
saying oh, they are treating you badly, you can stay at home, 
which is the default position.
    They need to get past the issues of the boarding schools 
and those things, and the reasons they did not send their kids 
to school and also learn how to advocate. It is really hard 
when you have parents who cannot read and write.
    We are starting to offer more GED classes to parents and 
having tutoring programs in their homes so they don't have to 
go and feel embarrassed for those kinds of things. I think that 
is important.
    I think the community infrastructure we had prior to these 
times does not support what is needed in these times. We have 
to look at the infrastructure and say mothers, yes, it is good 
to learn how to gather acorns because we like acorns and still 
use them, but now you have to do this too.
    You never knew about that but now we are going to help you 
learn about that. We will go with you a few times until you can 
figure out how to do this and how to talk to these people who 
are strangers to you. You can do this and your children need 
you to do it.
    Senator Smith. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Dr. Goodwin and Ms. Harp, I have a question 
for you.
    As I mentioned, the GAO reviewed the Federal resources 
available to help Indian tribes address juvenile delinquency. 
It highlighted that nearly $1.2 billion Federal were available 
as grants from the Department of Justice and the Department of 
Health and Human Services for Indian tribes and tribal 
organizations to combat juvenile delinquency; $1.2 billion was 
available.
    However, only $207 million was awarded to Indian tribes and 
tribal organizations. Can you tell me why?
    Dr. Goodwin. I will start and I will let Ms. Harp finish.
    One of the things we found with this report, as you stated, 
$1.2 billion was made available and only $207 million was 
actually awarded to tribal organizations. What is interesting 
about that is if you look at that, of the 122 programs, 27 of 
those were specific to Native American organizations and tribal 
governments and 95 of them would have included all of them.
    Of those 27 specific grant programs, that was $250 million. 
Of the 95 grant programs, we are looking at $944 million. I 
really want to focus on that $944 million that is not 
specifically targeted for Native American organizations.
    The tribal governments and Native American organizations 
were only awarded $14 million of that money. One of the things 
we did when we looked at this, we pulled together a sample of 
the declination letters to get a sense for why the tribes might 
not have been awarded some of these funds.
    Some of the things we saw were the application, some of the 
information was inconsistent and some information did not meet 
the criteria. We learned that in our conversations. Then we 
spoke to some of the tribal governments and organizations to 
ask them what would be helpful for you when you are filling out 
these forms.
    One of the things they talked about is being able to 
contact the officials to ask simple questions about the types 
of information they needed. They also talked to us about the 
short application deadlines for some of them made it really 
difficult to pull together the information and also pulling 
together the required data was also difficult depending upon 
how well sourced they were.
    Another thing we heard from the DOJ officials in particular 
was that some of the better sourced tribal governments and 
Native American organizations did do better when they were 
applying for grants.
    Those are some of the thing we heard. I am sure Ms. Harp 
has more detailed information.
    The Chairman. Of the $1.2 billion, how much of that is 
tribal specific?
    Dr. Goodwin. Of the $1.2 billion, $250.2 million.
    The Chairman. That is $250.2 million?
    Dr. Goodwin. Yes.
    The Chairman. Tribal specific?
    Dr. Goodwin. Tribal specific.
    The Chairman. So the amount awarded is still $50 million 
under the tribal specific, not to mention tribal eligible?
    Dr. Goodwin. Yes.
    The Chairman. Ms. Harp, can you comment on that?
    Ms. Harp. It is a problem having tribes apply for this 
money as well as getting them successfully to apply for the 
money, getting the money awarded. Looking at the reasons why 
their grant applications are not succeeding is important. We 
need to do that.
    We have held some accessing grants to strengthen tribal 
justice system capacity grant writing workshops around the 
Country, one in South Carolina and one in Alaska. That is just 
two and they were well attended. The tribes were there and that 
was great but it is not enough. We are going to have to do a 
good deal more to help the tribes apply effectively for the 
money. We realize that.
    At some point, getting them incentivized or getting them to 
want to go through the struggle of trying to apply for and 
competing for grants, I think either it is because they are 
afraid they are not going to get them and don't want to put the 
time into it because it is so time consuming. I am not sure but 
we need to get them more invested in wanting to apply for 
grants.
    This idea that they want someone to talk to while they are 
there or while they are doing it and they need a longer time to 
get things turned around, those might be adjustments we can 
make. There might be ways we can help with that.
    The Chairman. It would seem to me, you tell me what you 
think, both in terms of tracking this data and having DOJ 
involved in tracking this data, making sure we know what is 
going on so we can better address the problems and then having 
some kind of outreach to make sure we help tribes utilize these 
dollars to attack the problems seem like very productive uses 
of your time and efforts in your role and something you should 
focus on.
    We are going to want to hear about the progress you are 
able to make in that regard.
    Dr. Goodwin. Senator Hoeven, one of the things I want to 
put on the table is the grants we looked at were competitive 
grants because we wanted to examine how accessible they were to 
the tribal governments and Native American organizations.
    As you know, we have ongoing work to delve further into the 
whole conversation around grants and how accessible they are. 
We are going to expand our look from competitive to all of the 
grants that might be available to help issues around juvenile 
justice and delinquency.
    The Chairman. I think that is really good. That may be very 
helpful.
    Ms. Harp.
    Ms. Harp. I just wanted to point out part of the problem 
also is the larger tribes apply for grants, get the money and 
continue to improve their systems, but it is actually some of 
the smaller tribes that are in greater need for that money. 
They do not have the infrastructure, the ability or the 
capacity to apply successfully for those grants. That is a 
group we really need to focus on.
    The Chairman. We will look forward to your ideas to 
accomplish that and want to track the progress you make doing 
that. I am sure you will be invited back in that regard.
    Did anyone else want to offer any thoughts on that, any of 
the other witnesses?
    [No audible response.]
    The Chairman. Vice Chairman Udall.
    Senator Udall. Mr. Tahsuda, your thoughts on this. It seems 
to me your agents specifically do what he was talking about in 
the discussion between the two witnesses here. The Department 
of the Interior, specifically the agency you are working with, 
is supposed to have this fiduciary responsibility, trust 
responsibility doing the training, making sure that HHS and DOJ 
work with the tribes and work through the grant process to 
ensure that eligible tribes and tribal organizations can access 
grants fairly.
    What have you done on this? I am going to ask are you aware 
what his part of the operation is after he answers and Ms. 
Harp, what they have been doing specifically to help with this? 
This is a huge problem.
    Chairman Hoeven brought this out. Apparently, only 1 
percent of the DOJ grants that did not mention tribes is the 
number of how much tribes are getting. There is a real lack of 
fairness here.
    Mr. Tahsuda. Thank you, all good points and good question, 
Vice Chairman.
    For us specifically, we do not have a lot of grants focused 
on this. We have base funding. Of course the tribes are 
eligible to access that funding through self governance or self 
determination contracts. That is our primary mechanism to 
support the tribes.
    We either provide the direct service ourselves or the 
tribes can contract to provide that for them.
    Senator Udall. Do you help with the grant writing? That has 
been one of the big problems, the lack of resources to hire 
grant writing. It sounds like you have the resources to help 
them hire grant writers, especially these smaller tribes she is 
talking about.
    Mr. Tahsuda. I guess I would say we, of course, struggle 
mightily with the resources we have for the breadth of programs 
we offer. I think we could certainly be helpful probably to the 
department in that we have long experience in working with the 
tribes.
    I would point to self governance and self determination as 
an example where we are actually required by the law to assist 
the tribe in working through any impediments to it successfully 
submitting a contract, getting a contract awarded, or an annual 
funding agreement in place.
    We are required by that and have been required for years, 
so we have good experience in that. I think we would be happy 
if the Department of Justice wanted to ask us to help them work 
with the tribes on that. It would certainly be far more helpful 
if they could assist us with the resources, if it takes 
additional resources to do that.
    If it did not take any additional resources on our part, we 
would be happy to do that. Anything we can do that would assist 
the tribes in this endeavor, obviously we would love to do 
that.
    Senator Udall. I would like to see you in an affirmative 
relationship rather than asking them, you assisting them and 
working with HHS and the Department of Justice to get this 
done.
    Dr. Goodwin, from our interviews looking at this, with my 
staff looking at this as the specific causes, you have the one 
I mentioned, lack of resources to hire grant writers, 
difficulty navigating Federal grant databases, unclear 
eligibility, and unclear descriptions of eligibility activities 
for tribes interested in using funding for culturally-
appropriate activities.
    There is a real gap here, is there not, and huge potential 
if these agencies all worked with each other to get resources 
into this juvenile justice area. Is that correct?
    Dr. Goodwin. There is, Senator. I have one thing I want to 
say about the Department of the Interior and BIA.
    When we were pulling together our list of grants for 
review, we went to grants.gov and did a search on juvenile and 
delinquency programs. We came up with over 1,000 of them. We 
were focusing just on the grants that were competitive.
    BIA, actually we did not look at any grants from BIA 
because when we spoke with them, they told us they did not 
really have any competitive grants as related to juvenile 
justice or addressing issues around delinquency. They actually 
do not show up in our list of grants.
    The two agencies we focused on for this report are DOJ and 
HHS. Those were the two agencies that had the highest numbers 
of grants. Again, we were doing this for competitive grants. 
For the next review we will be doing for you, we are going to 
be pulling in all of the grants, the competitive and non-
competitive grants.
    You are correct, probably we could all benefit from the 
agency sitting down and having a conversation about how to make 
this process a little smoother for the tribal governments and 
the organizations.
    Senator Udall. Yes. Ms. Harp, please go ahead and answer.
    Ms. Harp. Thank you.
    I just wanted to remind everyone, and it came to my mind as 
you were talking, the Coordinating Council on Juvenile Justice 
exists just to solve these kinds of problems or to bring 
Federal agencies together must for this kind of conversation.
    It has not met in a while. It is supposed to meet 
quarterly. Now that I am here and we are doing it, our first 
meeting will be in December. It will have all the Cabinet 
agencies required by the statute. We will certainly invite 
Interior. This will be the topic of discussion for our first 
Coordinating Council meeting.
    Senator Udall. Thank you.
    I would focus on what you talked about, the smaller tribes 
that are having the biggest problem. How do you deal with that 
issue because I think if you looked at the juvenile issues 
across the board, you are probably going to see the ones that 
get the fewest resources have the biggest problems, wouldn't 
you guess?
    Ms. Harp. Yes, sir. It is the smallest tribes that probably 
have the greatest need. They are the ones with the least 
ability to access the money, yes.
    Senator Udall. Thank you, Chairman Hoeven.
    The Chairman. Senator Cortez Masto.
    Senator Cortez Masto. Thank you. Let me follow up on the 
conversation because I really appreciate, Ms. Goodwin, the 
discussion about the comprehensive grant review you are 
undertaking. When can we expect to see that?
    Dr. Goodwin. That work is just beginning. As you know, this 
was a massive undertaking for this particular engagement 
because we needed to identify where these grants were. Now that 
we know where they are, we have started moving forward on that 
next one. I will circle back with the scope.
    Senator Cortez Masto. You are still looking at it?
    Dr. Goodwin. We are still looking at it.
    Senator Cortez Masto. Here is what I am interested in 
because I do not know if any of you have ever applied for a 
Federal grant. I have. You need a four year degree in grant 
writing just to be able to do so. It is a challenge.
    What I am interested in is streamlining and making it a 
little bit easier for folks that have to apply for it, but I 
also know one of the challenges is the match, sometimes there 
is a match that the tribes just cannot come up with, a dollar 
match.
    There are the burdens sometimes of the hoops that you have 
to jump through on a regular basis just to keep $10,000 or 
$20,000 of a grant that is out there. I am really interested in 
how we, at the Federal level, can help streamline some of these 
and get the money we intend out there to help those tribes or 
organizations it is intended for and not make it a hindrance or 
barrier for them to get access to those dollars.
    Dr. Goodwin. Okay.
    Senator Cortez Masto. I am all about oversight, 
accountability, tracking it, and making sure there is no fraud. 
I think we can do that without making it so difficult to apply.
    Here is the other thing I am interested in. I am glad you 
mentioned the Coordinating Council because I think this is a 
great opportunity. Most States, particularly the State of 
Nevada, even in my office as AG and now as a United States 
Senator, I have a team that focuses just on grant writing, 
literally to provide assistance to organizations, whether State 
agencies or individuals, that need help in applying for these 
grants.
    I do not know if there is a way at the Federal level we can 
put together some sort of program that just provides 
assistance. Obviously, we do not want to provide it in a way 
that gives them a leg up if they are competitive grants but 
there has to be a way to provide some sort of technical 
assistance or some sort of assistance.
    I do not know what that would look like, so I am interested 
to see what the Coordinating Council comes up with. If we 
streamline the grants and make it much easier, we may not have 
to worry about that.
    I am really interested in your report. I appreciate the 
conversation today. Thank you.
    The Chairman. Vice Chairman Udall.
    Senator Udall. Ms. Goodwin, the GAO told my staff last week 
that the lack of comprehensive data sources was a problem 
throughout your investigation. Specifically, you mentioned the 
paper files are being used to track critical information 
regarding Native youth in BIA-operated detention systems.
    Can you please explain the data situation at BIA-operated 
facilities and are they actually using paper to track 
individuals incarcerated at BIA facilities?
    Dr. Goodwin. The team went over to BIA to look at 
information as related to these facilities. Yes, the team had 
to look through the paper files. That, of course, can be 
problematic because you have people filling out forms, forms 
could be misplaced, or there is no central location for them. 
That was an issue for us when pulling together our data.
    I am sure Mr. Tahsuda has even more insight into what could 
be done to help alleviate that process, but for us, as the 
agency going in to look at this information, it was challenging 
because we had to go through paper files.
    Senator Udall. Mr. Tahsuda, the lack of comprehensive, 
easily accessible data on Native youth in the Federal justice 
system is, frankly, appalling to me. To be frank, this data 
issue is not limited to the BIA's handling of juvenile records; 
it has come up many, many times before.
    What is the department doing to address widespread data 
deficiencies that impede planning, investigations, research and 
general fulfillment of its trust responsibilities?
    Mr. Tahsuda. I am sorry, was that directed to me?
    Senator Udall. Yes.
    Mr. Tahsuda. As with a lot of our systems, it has taken us 
some time to get into the modern age. We do now have a 
detention database in-house. I will have to get back to you 
about that particular information. I assume we are in some 
transition period in which we are taking paper records and 
getting them into the database.
    Again, I guess I would say I do not know that it is an 
acute problem for us in that we do not actually have that many 
juveniles in our system. In fact, we have much greater capacity 
in our juvenile detention facilities than we actually house 
juveniles.
    Our daily average population is only 20 percent of our 
total bed population in our system juvenile facilities. I think 
we are getting everyone into this database but I think the 
information is there.
    Senator Udall. Dr. Goodwin.
    Dr. Goodwin. I just wanted to follow up on that point.
    Another thing we did was we tried to look at these 
detention facilities as related to the tribal justice system. 
We looked at three detention centers in Indian Country, the 
Northern Cheyenne, Standing Rock and Ute Mountain Ute.
    The Northern Cheyenne facility saw an increase in their 
admissions from 2012 to 2016 where it went from 14 to 204. We 
did ask BIA why that was happening. They told us some of the 
surrounding tribes were sending their youth to that particular 
facility.
    As relates to Standing Rock, that facility just opened in 
May 2016 but in that year, they had 131 admissions to their 
facility. For the Ute Mountain Ute facility, that fluctuated 
but we actually saw a decline from 89 in 2014 to 53 in 2016.
    We were able to get some information related to the tribal 
systems but not as much as we would have liked, of course.
    Senator Udall. Thank you.
    The Chairman. Senator Cortez Masto, any other questions?
    Senator Cortez Masto. No.
    The Chairman. If there are no other questions, the hearing 
record will be open for two weeks.
    I want to thank all of our witnesses for being here today. 
We appreciate it very much.
    With that, we are adjourned.
    [Whereupon, at 4:25 p.m., the Committee was adjourned.]

                         A  P  P  E  N  D  I  X

    Response to Written Questions Submitted by Hon. Steve Daines to 
                           Gretta L. Goodwin
    Now, the GAO report we're focusing on today reflects some troubling 
realities for Montana. As the report details, in most states, the 
percentage of Native American youth confined at state and local 
detention facilities or arrested by state and local law enforcement 
agencies was similar to the percentage of native youth in the state's 
population. But in Montana, those rates of arrest and confinement for 
Native American youth were between 5-15 percent higher than the 
percentage of native youth in Montana's population.
    I'm also concerned to know that Native American youth admitted to 
Northern Cheyenne juvenile detention center, one of BIA's three 
juvenile detention facilities, increased yearly between 2012 and 2016, 
from 14 to 204. That's nearly a 15-fold jump.
    Question 1. Dr. Goodwin, what do you attribute that sharp increase 
to?
    Answer. As we reported in September 2018, we obtained and reviewed 
admission records from three juvenile detention centers in Indian 
country managed by the Department of the Interior's Bureau of Indian 
Affairs (BIA). One of those juvenile detention centers was the Northern 
Cheyenne facility in Montana, for which we obtained records for 5 
years--2012 to 2016. Our analysis showed that the number of youth 
admitted to that facility increased from 14 to 204 during this time 
period, as you stated in your question.
    We noted in our September 2018 report that comprehensive data on 
the number of tribal law enforcement agency (LEA) arrests were not 
available. However, we also reported that, according to BIA officials, 
the growth in the number of youth admitted to the Northern Cheyenne 
facility from 2012 to 2016 likely reflected an increase in admissions 
of Native American youth from surrounding tribes. Specifically, BIA 
officials noted that the Northern Cheyenne facility admits youth from 
other tribes, which have grown accustomed to sending their youth to the 
facility, because the facility is centrally located. BIA officials also 
noted that the Northern Cheyenne facility services an area where there 
is a high rate of delinquency among youth, and because the facility 
works well with Native American youth struggling with delinquency 
issues, many tribes choose to send their delinquent youth to the 
facility. Further, since 2012, the Northern Cheyenne facility increased 
its bed space and staff, thus increasing its capacity to admit more 
youth, according to BIA officials.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Steve Daines to 
                           Hon. Abby Abinanti
    Question. Can you share more of your perspective on the specific 
benefits of culturally appropriate native youth delinquency prevention 
and response, including for youth while they are incarcerated?
    Answer. Providing culturally appropriate prevention and response to 
delinquent behavior strengthens Native American youth's identity 
through connecting themselves to their village, family, and community. 
It teaches self-confidence and pride, and helps them define an identity 
for themselves that is relevant to their daily lives through such 
activities as increased interaction with elders, fishing, hunting, 
making regalia, and learning about Native American culture. It allows 
them to receive services, help, and training in a manner that is 
consistent with their personal world view and beliefs. This improves 
results because youth actively engage and commit to the process, as 
opposed to being an unwilling or inactive participant as they so often 
are in the state process.
    Further, often the goal of culturally appropriate responses is 
different than the state systems' goals: typical state programs are 
punitive while tribal culturally appropriate program aim to 
rehabilitate and restore through increasing understanding of one's 
place in the world, repercussions of actions, and acceptance of self-
responsibility. These are all principals of Yurok culture that inform 
human behavior. A Yurok child cannot be ``reformed'' until he or she 
knows family home villages, the role of family and individuals, and 
accepts responsibility as a village member.
    To start this process as a judge, every child that comes before me 
is acknowledged as a part of a village, an extended family, and the 
larger tribal community. They have names and faces, and it is as a 
unique individual that I hold them accountable. As Yuroks, they are 
responsible to their community and for themselves, just as their 
community is responsible to and for them. Through the court response, 
youth learn that Yurok people bless the deep river, the tall redwood 
trees, the rocks, the mounds, and the trails. Youth are encouraged to 
connect to their culture and to their community to better take 
responsibility for themselves and, when prevention fails, for 
addressing the problems that brought them into my court. This process 
connects them to the community-both land and people-as opposed to 
incarceration, separating them further from the source that would make 
them whole.
    A second key to preventing delinquency is to keep our youth in 
school. The high truancy and dropout rates among our children limit 
their futures. Children who are truant and chronically absent are more 
likely to engage in substance abuse than non-truant, non-absent peers, 
and those children were more likely to abuse substances whilst truant/
absent. \1\ Truancy and chronic absenteeism are extremely high on the 
Yurok Reservation. For the 2016-2017 school year, in Del Norte County 
the rate of chronic absenteeism among Native American students was 31.4 
percent compared to a rate of21.5 percent for the County as a whole. 
Similarly, in Humboldt County the rate of chronic absenteeism among 
Native American students was 25.7 percent compared to 15.2 percent for 
the County as a whole.
---------------------------------------------------------------------------
    \1\ Henry, K. L., & Thornberry, T. P. (2010). Truancy and 
escalation of substance use during adolescence. Journal of Studies on 
Alcohol and Drugs, 71 (I), 115-124
---------------------------------------------------------------------------
    The problem of youth delinquency does not reside in the youth 
alone. Yurok families have experienced historical and multi-
generational trauma that affect the youth. From the mid- 1800's 
children were forcibly removed from their families and sent to boarding 
schools to be trained as laborers and servants. The children were 
forced into labor, beaten for speaking their language or practicing 
their culture, children in the late 1800s and early 1900s were also 
used as indentured slaves. This is not ancient history: during WWII 
Yurok boys were sent to factories and trained to build military 
equipment and then, when they were of age, drafted into the military to 
fight for the United States. \2\ These forced removal practices 
continued through the 1950s. \3\ Today's parents and grandparents 
experienced and bear the scars of this trauma. It is necessary to help 
Yurok adults learn how to be present for their children, traditionally, 
and also through education and wellness so they are better able to 
fight for systemic change that is culturally appropriate. In fact, 
including the entire family in the response is culturally proper and 
traditional.
---------------------------------------------------------------------------
    \2\ Lowry, Chag 2007. The Original Patriots. 270 pp
    \3\ Haig-Brown, C. 1988 Resistance and Renewal: Surviving the 
Indian Residential School. Vancouver, Tilacum Library.
---------------------------------------------------------------------------
    Yurok parents, like other Native Americans, often self-medicate in 
response to historical trauma. \4\ The deceptive marketing and over-
prescription opioids have added another trauma to the families who must 
now try to rebuild their lives. Substance abuse is a major factor in 
the placement ofYurok children in foster care. Under the Indian Child 
Welfare Act ``ICWA'', the Tribe provides to all Yurok tribal members 
across the United States, a caseload that currently includes a total of 
269 child welfare cases. Many of these child welfare cases are a result 
of opioid abuse in the home. Presently, 28 percent of child welfare 
cases reported from the Tribe's Weitchpec Office caseload have been 
referred as a result of documented Opioid Use Disorder in one or both 
parents. This is likely an underestimate of the extent of the problem, 
considering the reported over prescription rates. It is necessary to 
help Yurok adults learn how to be present for their children, through 
education and wellness, so they are better able to support and keep 
their children in school.
---------------------------------------------------------------------------
    \4\ Maria Yellow Horse Brave Heart (2003) The Historical Trauma 
Response Among Natives and Its Relationship with Substance Abuse: A 
Lakota Illustration, Journal ofPsychoactive Drugs, 35:1,7-13, DOl: 
10.1080/02791072.2003 .I0399988
---------------------------------------------------------------------------
    Further, it is important to create a truancy and delinquent act 
notice requirement of Native American children so the tribe is given 
the opportunity to assist in the response to a delinquent or truant 
act. A cultural response to either truancy or a delinquent act is a 
benefit in itself, but also can allow the Yurok Tribal court through 
joint jurisdiction courts to provide assistance in its Wellness 
program. This will offer an alternative to the current system of 
incarceration of parents of truant children in California, and allow a 
more culturally appropriate response solution by trying to heal the 
entire family rather than separate the family from one another and 
incarcerate the parent(s). Not only will this allow for healthier 
families but it develops respect for the children's background and 
culture, and the school system.
    Culturally, the Yurok villages and the village leaders are best 
situated to develop an infrastructure that can respond to the injuries 
caused by the historical events that impact the Yurok and partially 
cause the struggles for parents and children. Wellness, education, and 
local support can overcome these struggles, and help the tribe, and 
this Country, to move forward with the next generation ofNative 
American youth earning an education, learning skills, and finding paths 
that have positive outcomes.
Pilot Program
    To assist in combating youth delinquency, the best preventive 
program is to improve education for children and parents. To make 
education more relevant to the children's culture and daily lives while 
promoting wellness and limiting the effect of opioids and drug use, 
will develop more healthy families and children. This could be 
structured through a pilot program that provides better representation 
of tribal children in the education system and allows for notice to the 
tribes of children who are struggling in school, or are in the 
delinquency courts, so the tribe can provide a culturally appropriate 
response. Notice to tribes can be structured similarly to the way 
tribes are noticed in ICW A cases, and should be mandated in a similar 
fashion.
    The Yurok Tribe, like many tribes, is located in an extremely rural 
community. Currently most Yurok children are educated in state public 
schools. The State of California does not properly provide the required 
response to the educational struggles in Yurok Country or other public 
schools that Yurok children are attending. An approach to addressing 
these problems could be to develop a pilot project that includes the 
following components:
    (1) Educational swat teams inclusive of attorneys for the family to 
appear at all Individualized Education Program (IEP) hearings, and for 
all suspensions. The benefit here is proper representation in the 
education system and early notice of problematic behavior to the Tribe 
to facilitate tribal assistance to the families that support these 
kids. Currently, the IEP, truancy and suspension process is tightly 
linked to delinquency. The benefit of this support to the children is 
that it would allow for the tribe and tribal members to be better heard 
in the education system, and help to better educate the families about 
the education system they are in. This improvement in representation 
would assure legitimate due process for Native American children, and 
compel the schools to create the proper IEP to enable students to 
address their education needs. These supports would help reduce the 
middle school dropout rate that directly relates to the juvenile 
delinquency in Yurok Country.
    (2) Training that teaches parental advocacy and supports parents to 
advocate for their children. The teams ideally would include attorneys, 
paralegals and support staff, with the goal of representation, self-
advocacy. These efforts would offer early intervention which would 
increase potential success, and in practice would derivatively allow 
earlier data collection for a category that is a struggle: tribal 
youth, and we would better understand the dropout rates and causes.
    (3) Education for the parents, the adults in these families that 
the children are relying on, is equally important. Active efforts, like 
private tutors for the parents and guardians of these children who have 
not received a high school degree or a GED that assists them in 
enrollment and completion of on-line GED or equivalent programs. 
Educated parents will understand education more which and will enable 
them to be to keep the family on track and be selfadvocates through the 
education and delinquency systems.
    (4) Support for joint jurisdiction delinquency and truancy courts 
in PL-280 States. The Yurok, Del Norte and Humboldt Counties have 
already begun creating joint jurisdiction courts to hear civil matters, 
including juvenile delinquency matters. The joint court has improved 
outcomes for Yurok students by allowing the tribe to become involve_4 
earlier in court cases, provide advocacy to the student and family, and 
be involved in the disposition of the case. This is critical because 
the Tribe's early and active involvement enables culturally appropriate 
responses and thereby, improves responses. It is also helpful to 
families combating the Del Norte and Humboldt Counties policy of 
incarcerating parents of truant children; this practice is more harmful 
than helpful. It can be changed through the joint jurisdictional court 
and the Yurok Tribe's wellness court that allows for a diversion 
program and provides family services to address the underlying issues 
causing student truancy and delinquent behavior.
    (5) Nationwide opioid shut-out to all medical/dental facilities for 
children assuring opioids are not provided for wisdom teeth or athletic 
injuries of our youth. Tribes rely on federal programs for medication 
and do not have the expertise to question the one medical source 
available in these rural communities.
    Congress should consider authorizing and fund all or a combination 
of these programs. These programs should be at least three years long 
with the opportunity to be expanded into five year programs if 
performance and outcomes indicate progress. Just as in addressing grant 
writing concerns, the lengthier programs seem particularly important to 
the process of collecting data about native children to better provide 
comprehensive responses to the current youth education and delinquency 
systemic failure.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                           Hon. Abby Abinanti
    Question 1. With your experience in the tribal judicial system, do 
you believe that the federal government is doing enough to make 
available federal funding accessible for tribal governments, regardless 
of size, resources, or grant-writing capacity?
    Answer. No, the Federal Government is not doing enough to make 
federal funding available to tribes. As an initial matter, federal 
funding would be best spent on tribal education programs to prevent 
Native American children from entering the juvenile justice system. 
Currently, tribal governments are not eligible for federal education 
funding in the Elementary and Secondary Education Act (ESEA). In 2018 
Congress appropriated almost $60 billion in federal funding for 
education through the ESEA. The lack of tribal eligibility for this 
funding is a huge missed opportunity to empower tribes to participate 
in education programs that would result in preventing students from 
becoming a part of the juvenile justice system. Specifically, tribes 
should have access to funding to support tribally operated schools, 
legal advocates for children and parents at suspension/truancy related 
hearings and IEP meetings/hearings, and work in educational governance. 
My first recommendation is to amend the ESEA to authorize tribes as 
eligible entities for the federal education funding in the ESEA.
    Further, should Native American children become involved in the 
juvenile justice system, tribes could provide support services if there 
was more federal funding available to tribes for this purpose. At 
Yurok, the Tribal Court would be capable of processing juvenile justice 
cases if we had federal funding to support the work. While the GAO 
report on Native American Youth involvement in Justice Systems and 
Information on Grants to Help Address Juvenile Delinquency (``GAO 
report''), reports there are 122 discretionary grants and cooperative 
agreements to address juvenile delinquency and $207.7 million went to 
tribal governments and Native American organizations in fiscal years 
2015-2017, \1\ this is insufficient to address the problem. The lack of 
federal funding at Yurok has prohibited the Tribe from more 
aggressively developing culturally appropriate responses to delinquency 
and hearing such cases in the Yurok Tribal Court. If more funding was 
available to tribes, Yurok could develop a tribal juvenile code and 
build culturally appropriate services to support Yurok children in the 
juvenile justice system. Such a system would greatly improve juvenile 
justice for Yurok children because those cases are currently in Del 
Norte and Humboldt Counties which are chronically underfunded and 
systematically biased. In California and other P.L. 280 states that 
might include the support of joint truancy courts, which would allow 
the State statutorily established truancy courts to partner with Tribal 
Courts and jointly resolve attendance issues. My second recommendation 
is to increase federal grant funding to tribes to support juvenile 
justice systems.
---------------------------------------------------------------------------
    \1\ https://www.gao.gov/products/GA0-18-591
---------------------------------------------------------------------------
    With respect to the limited existing grant programs, there are 
several systematic problems that prevent tribes from being awarded 
federal funding, evidenced by the disproportional amount of funds 
granted to tribes as compared to available funding. The GAO report 
noted that DOJ and HHS made approximately $1.2 billion in first-year 
awards to grantees and only $207.7 million went to tribal governments 
or Native American organizations. \2\ Grant and program requirements 
are developed and scaled for states and counties, which typically have 
more resources than tries. Tribes, particularly those with fewer 
financial resources, lack the capacity to meet grant and program 
requirements that are tailored for states and counties. To solve this 
problem, the federal agencies should work with tribes to:
---------------------------------------------------------------------------
    \2\ https://www.gao.gov/products/GA0-18-591

         (1) develop tribal mentorship programs to aide tribes applying 
---------------------------------------------------------------------------
        for grants;

         (2) create funding opportunities that are tailored to tribal 
        needs; and

         (3) investment in pilot programs built around tribal juvenile 
        justice problems that can provide data, develop culturally-
        relevant, evidence-based programs and offer proof-of-principal, 
        as required by the federal government for evidence-based 
        programs.

         (4) develop resources for tribal parents who must heal their 
        relationship(s) with the education system that historically 
        concentrated on forcing Native children (often now the parents) 
        to lose their identity. This created a historical wrong that is 
        now manifesting in parent behavior of avoiding or being 
        confrontational to the educational system teaching their 
        children.

    In sum, the federal government is not doing enough. To fix this the 
federal government should amend existing laws authorizing education and 
juvenile justice grants to ensure tribes are eligible and amend exiting 
programs requirements to support tribes.

    Question 2. What can Congress and federal agencies do to make 
federal funding more accessible to Tribes?
    Answer. First, Congress should ensure that Tribes are eligible for 
all federal funding to support juvenile justice. Often times only 
states or local governments are eligible for funding sources that 
support critical juvenile justice programs. Tribes should be added as 
eligible entities. Second, Congress should consider making minor 
amendments to the grant making process. Although the Yurok Tribe has 
had recent successes with grant applications, the amount of time and 
effort required to apply for funding becomes prohibitive when the 
funding amount is low and the requirements of the applications or the 
programs frequently exceed tribal capacity. Grant applications that go 
un-funded take no less time than those that succeed and grant writing 
efforts take time away from implementing the very programs they fund. 
The application process could be improved by:

        (1)  increasing the time between the release of the notice of 
        funding availability and the due date;

        (2)  staggering the release of funding opportunities so that 
        multiple complex applications are not due simultaneously;

        (3)  reaching out to tribes to announce the availability of 
        funds; and

        (4)  increasing the grant period for implementation to address 
        the complex realities of implementing funded programs in Indian 
        Country.

    The design of many programs assumes that data required for the 
grant application and program implementation exist which is often not 
the case for tribes or other communities in rural areas. Assistance 
with data collection and restructuring the way the federal government 
collects, processes and shares data, and the type of data collected on 
juvenile justice in tribal communities will be necessary to address 
some of these problems. (For instance, counties often will collect 
racial data as it participants are Native American, but not political 
data as in they are Yurok citizens.)
    Tribes rarely have a pool of qualified staff or ready-to-implement 
culturally-appropriate programs to implement the grant programs that 
are funded. The guidelines for federal programs rarely allow sufficient 
time or resources to hire and train personnel and create the programs. 
One solution is to extend the implementation period of programs and to 
include funding for the costs of training personnel and developing 
programs. Additionally, a series of pilot programs for grants and for 
juvenile delinquency should be developed in collaboration with tribes, 
which can then be implemented and tested by tribes so that there are 
proven, evidence-based programs that can be implemented in Indian 
Country to address the failings of the juvenile system in our 
communities.
                                 ______
                                 

    *RESPONSES TO THE FOLLOWING QUESTIONS FAILED TO BE 
SUBMITTED AT THE TIME THIS HEARING WENT TO PRINT*

      Written Questions Submitted by Hon. Tom Udall to Caren Harp
Consultation with Stakeholders
    Question 1. When developing and implementing programs for Native 
youth who enter the justice system and cited in your testimony, do you 
conduct consultation with tribal stakeholders? If so, please provide a 
summary of the consultation efforts undertaken by the Department on 
juvenile justice and explain the areas in which tribal stakeholders 
have indicated a need for resources through your consultations.

    Question 2. How does the Department of Justice determine if grant 
programs are serving the needs of Indian Country?

    Question 3. How will the Department work to make grant programs for 
accessible for Tribes with limited resources?
                                 ______
                                 
     Written Questions Submitted by Hon. Tom Udall to John Tahsuda
Data on Juvenile Delinquency in Indian Country
    Question 1. According to Government Accountability Office (GAO) 
statements to Committee staff, the lack of a centralized data tracking 
system at the BIA stalled the overall investigation by the GAO into 
juvenile justice trends at the Bureau's corrections facilities. GAO 
also flagged the inadequate collection of data and outdated information 
technology systems as two of the five areas the Bureau and other 
federal agencies inefficiently administration of Indian programs. What 
is the Department doing to address widespread data deficiencies that 
impedes planning, investigations, research, and general fulfillment of 
its trust responsibilities in the areas of justice, transportation, 
energy, education, and self-governance?
Consultation with Stakeholders
    Question 2. When developing and implementing programs for Native 
youth who enter the justice system, do you conduct consultation with 
tribal stakeholders? If so, please provide a summary of the 
consultation efforts undertaken by the Department on juvenile justice 
and explain the areas in which tribal stakeholders have indicated a 
need for resources through your consultations.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
